Audit Report No. D-2011-021             December 3, 2010




              More DoD Oversight Needed for
               Purchases Made Through the
                  Department of Energy
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CEW                           Cost Estimate Worksheet
COR                           Contracting Officer’s Representative
D&F                           Determination and Findings
DFARS                         Defense Federal Acquisition Regulation Supplement
DOE                           Department of Energy
DOE-IG                        Department of Energy, Office of the Inspector General
DTRA                          Defense Threat Reduction Agency
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System-Next Generation
GAO                           Government Accountability Office
IACRO                         Interagency Cost Reimbursement Order
IG                            Inspector General
IGCE                          Independent Government Cost Estimate
MIPR                          Military Interdepartmental Purchase Request
NNSA                          National Nuclear Security Administration
O&M                           Operations and Maintenance
OIG                           Office of Inspector General
RDT&E                         Research, Development, Test, and Evaluation
SPIRITT                       Spectral Infrared Remote Imaging Transition Testbed
TINA                          Truth in Negotiations Act
U.S.C.                        United States Code
WFO                           Work for Others
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON , VIRGINIA 22202- 4704
                                                                        December 3,2010



MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
              ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              DIRECTOR, DEFENSE THREAT REDUCTION AGENCY

SUBJECT: More DoD Oversight Needed for Purchases Made Through the Depmiment
         of Energy (Report No. D-2011-021)

We are providing tllis repoli for review and comment. We considered comments from the
Under Secretary of Defense for Acquisition, Teclmology, and Logistics; the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer; the Navy; and the
Defense Threat Reduction Agency when preparing the final report. The Departments of
the Army and Air Force did not provide conunents to the draft repOli. This repOli
discusses significant contracting problems that occur when DoD activities use the
Department of Energy Work for Others program, including potential violations of the
Antideficiency Act.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We request
comments from the Departments of the Army and the Air Force by January 3, 2010. See
the recommendations table on page ii of this report.

If possible, send a pdf file containing your conunents to audacm@clodig,mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signecl/symbol in place of the actual signature.
If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the comiesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-920 I).                                                   '

                                       ~~                            ,)J,,\,U;U-VH

                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition ancl Contract Management


cc: Inspector General, Depaliment of Energy
Report No. D-2011-021 (Project No. D2009-D000CF-0069.000)                        December 3, 2010

              Results in Brief: More DoD Oversight
              Needed for Purchases Made Through the
              Department of Energy
                                                       occurred due to a lack of DoD contracting
What We Did                                            officer involvement.
In accordance with the National Defense                We also identified 31 potential bona fide needs
Authorization Act for FY 2009, we reviewed             rule violations, valued at $641,188 (Finding B).
DoD procedures for purchases through the               This is because there is a lack of defined policy
Department of Energy (DOE), specifically               on the financing of all types of contracts using
projects that DOE National Nuclear Security            Research, Development, Test, and Evaluation
Administration (NNSA) sites performed under            funds.
the DOE Work for Others (WFO) program.
                                                       What We Recommend
What We Found                                          We recommend that the Under Secretary of
DoD requesting activities continue to use DOE          Defense for Acquisition, Technology, and
for assisted interagency acquisitions while DOE        Logistics resolve the Section 801 noncompli-
has not certified that it will comply with             ance issues we identified. We recommend the
Defense procurement requirements in                    Under Secretary of Defense (Comptroller)/Chief
accordance with Section 801 of the FY 2008             Financial Officer instruct the Services and
National Defense Authorization Act (Section            Defense Threat Reduction Agency to initiate
801). In addition, for all WFO projects that           preliminary reviews of potential Antideficiency
NNSA sites perform for DoD, NNSA                       Act violations and update the Financial Manage-
contracting officers do not record detailed            ment Regulations with general and detailed
procurement data into the Federal Procurement          funding guidance. We recommend that
Data System-Next Generation database, make             Acquisition Executives for the Army, Navy, and
price reasonableness determinations, obtain            Air Force, and the Director, Defense Threat
certified cost or pricing data, designate              Reduction Agency make program and
contracting officer’s representatives, or              contracting officers aware of their
designate individuals to review contractor             responsibilities for obtaining and reviewing
invoices. This is because DOE does not believe         detailed cost information for individual WFO
that Section 801 applies to reimbursable               projects.
activities performed by DOE and its contractors.
Since November 23, 2009, the Director,
Defense Procurement and Acquisition Policy,            Management Comments and
has issued three Section 801 waivers allowing          Our Response
DoD to continue to do business with DOE on an
interim basis. The most recent waiver, issued on       The Under Secretary of Defense for
September 28, 2010, allows DoD to do business          Acquisition, Technology, and Logistics; the
with DOE during FY 2011 for DoD purchases              Under Secretary of Defense (Comptroller)/Chief
up to a total amount of $2.5 billion. Our review       Financial Officer; the Acquisition Executive of
of 14 WFO projects, valued at $9.7 million, also       the Navy; and the Director, Defense Threat
determined that DoD officials did not                  Reduction Agency, generally agreed with the
adequately review contractor cost estimates for        recommendations. The Departments of the
11 WFO projects, prepare detailed independent          Army and the Air Force did not provide
Government cost estimates for the 14 WFO               comments on our Recommendation A.3. We
projects, or meet DoD funding document                 request additional comments by January 3,
specificity requirements for 19 DoD funding            2011. Please see the recommendations table on
documents (Finding A). These situations                the back of this page.

                                                   i
Report No. D-2011-021 (Project No. D2009-D000CF-0069.000)       December 3, 2010


Recommendations Table

Management                     Recommendations     No Additional Comments
                               Requiring Comment   Required
Under Secretary of Defense                         A.1, A.2, B.1
for Acquisition, Technology,
and Logistics

Under Secretary of Defense                         B.2
(Comptroller)/Chief
Financial Officer
Acquisition Executive of the   A.3
Army
Acquisition Executive of the                       A.3
Navy
Acquisition Executive of the   A.3
Air Force
Director, Defense Threat                           A.3
Reduction Agency

Please provide comments by January 3, 2011.




                                          ii
Table of Contents
Introduction                                                                 1

      Objectives                                                             1
      Background                                                             1
      Review of Internal Controls                                            3

Finding A. DoD Has Significant Contracting Problems When Using DOE           5

      Contracting Officer Responsibilities Not Performed                     5
      Noncompliance With Defense Procurement Requirements                    6
             Section 801 Waivers                                             7
      DoD Procurement Data Are Not Reported                                  7
      No Price Reasonableness Determinations                                 9
      No Certified Cost or Pricing Data                                     10
      No CORs Designated to Monitor Contractor Performance                  11
      No Review of Contractor Invoices                                      11
      WFO Projects We Reviewed                                              12
      DoD Activities Made Best Interest Determinations                      12
      Inadequate DoD Reviews of Contractor-Proposed Costs                   13
             Limited Access to Detailed Contractor Cost Information         14
      Unsupported Independent Government Cost Estimates                     16
             DoD Funding Documents Lacked Specificity                       17
      Other Issues                                                          18
             Work Performed Beyond Period of Performance                    18
             Lack of Good Documentation                                     19
             Improving the Management and Use of Interagency Acquisitions   19
             Unconventional Procedures for Adding Defense Procurement
                    Requirements to WFO Projects                            20
      Reasons for Contracting Problems                                      20
      Management Actions                                                    21
      Conclusion                                                            21
      Recommendations, Management Comments, and Our Response                21

Finding B. Potential Bona Fide Needs Rule Violations                        25

      Inappropriate Use of RDT&E and O&M Funds                              27
             Large Scale Social Simulation WFO Project                      28
             Dynamic Explosive Training Site WFO Project                    28
             Raft Scoring WFO Project                                       30
             Longwave Infrared Hyperspectral Imaging Spectrometer Module
                     WFO Project                                            31
             Smart Threads Integrated Radiological Sensors
                     WFO Project                                            34
             Test and Evaluation Support WFO Project                           35
      Contributing Factors to Funding Problems                                 37
      Conclusion                                                               38
      Recommendations, Management Comments, and Our Response                   38

Appendices

      A.   Scope and Methodology                                               40
      B.   Prior Coverage                                                      42
      C.   Work for Others Projects We Reviewed                                45
      D.   Inadequate DoD Review of Contractor Cost Estimates                  46
      E.   MIPRs Lacked Specificity                                            47
      F.   Potential Funding Problems                                          48
      G.   Improving the Management and Use of Interagency Acquisitions        49
      H.   DOE FYs 2009 and 2010 Section 801 Certifications                    51
      I.   Section 801 Waivers                                                 53

Management Comments

      Office of the Under Secretary of Defense for Acquisition, Technology,
             and Logistics                                                     56
      Office of the Under Secretary of Defense (Comptroller)/Chief Financial
             Officer                                                           64
      Department of the Navy                                                   67
      Defense Threat Reduction Agency                                          69
Introduction
Objectives
Our overall audit objective was to review DoD procedures for purchases that the
Department of Energy (DOE) made on behalf of DoD. Specifically, we examined the
policies, procedures, and internal controls to determine whether there was a legitimate
need for DoD to use DOE, whether DoD clearly defined requirements, whether DOE and
DoD properly used and tracked funds, and whether DoD procurement requirements were
complied with. See Appendix A for a discussion of the scope and methodology. See
Appendix B for prior coverage related to the objectives. The DOE Office of the
Inspector General (DOE-IG) prepared a separate audit report to DOE, which included
audit recommendations to DOE management.

Background
This audit was performed as required by Section 804, Public Law 110-417, “Duncan
Hunter National Defense Authorization Act for Fiscal Year 2009,” October 14, 2008.
Section 804 states:

                   (a) INCLUSION OF ADDITIONAL NON-DEFENSE AGENCIES IN
              REVIEW.—The covered non-defense agencies specified in subsection
              (c) of this section shall be considered covered non-defense agencies as
              defined in subsection (i) of section 817 of the John Warner National
              Defense Authorization Act for Fiscal Year 2007 (Public Law 109-364;
              120 Stat. 2326) for purposes of such section.
                   (b) DEADLINES AND APPLICABILITY FOR ADDITIONAL NON-
              DEFENSE AGENCIES. —For each covered non-defense agency specified
              in subsection (c) of this section, section 817 of the John Warner
              National Defense Authorization Act for Fiscal Year 2007 (Public Law
              109-364; 120 Stat. 2326) shall apply to such agency as follows:
                        (1) The review and determination required by subsection
                   (a) (1) of such section shall be completed by not later than March
                   15, 2009.
                        (2) The review and determination required by subsection
                   (a) (2) of such section, if necessary, shall be completed by not later
                   than June 15, 2010, and such review and determination shall be a
                   review and determination of such agency’s procurement of
                   property and services on behalf of the Department of Defense in
                   fiscal year 2009.
                        (3) The memorandum of understanding required by
                   subsection (c) (1) of such section shall be entered into by not later
                   than 60 days after the date of the enactment of this Act.
                        (4) The limitation specified in subsection (d) (1) of such
                   section shall apply after March 15, 2009, and before June 16, 2010.
                        (5) The limitation specified in subsection (d) (2) of such
                   section shall apply after June 15, 2010.
                        (6) The limitation required by subsection (d) (3) of such
                   section shall commence, if necessary, on the date that is 60 days
                   after the date of the enactment of this Act.




                                                  1
                    (c) DEFINITION OF COVERED NON-DEFENSE AGENCY.—In this
               section, the term “covered non-defense agency” means each of the
               following:
                         (1) The Department of Commerce.
                         (2) The Department of Energy.
                    (d) MODIFICATION OF CERTAIN ADDITIONAL AUTHORITIES ON
               INTERNAL CONTROLS FOR PROCUREMENTS ON BEHALF OF DOD.—
               Section 801 of the National Defense Authorization Act for Fiscal Year
               2008 (Public Law 110-181; 122 Stat. 202; 10 U.S.C. 2304 note) is
               amended—
                         (1) in subsection (a)(2)—
                                   (A) in subparagraph (B), by striking “each of the
                              Department of the Treasury, the Department of the
                              Interior, and the National Aeronautics and Space
                              Administration” and inserting “the Department of the
                              Interior”; and
                                   (B) by adding at the end the following new
                              subparagraph:
                                   (D) “In the case of each of the Department of
                              Commerce and the Department of Energy, by not later
                              than March 15, 2015;” and
                         (2) in subsection (f)(2)—
                                   (A) by striking subparagraphs (B) and (D);
                                   (B) by redesignating subparagraphs (C), (E), and (F)
                              as subparagraphs (B), (C), and (D), respectively; and
                                   (C) by adding at the end the following new
                              subparagraphs:
                                   (E) “The Department of Commerce.”
                                   (F) “The Department of Energy.”

Interagency Acquisition
Interagency acquisition is the term used to describe the procedure by which an agency
needing supplies or services obtains them using another agency’s contract, the acquisition
assistance of another agency, or both. Interagency acquisitions typically involve two
Government agencies: the requesting agency is the agency with the requirement, and the
servicing agency, which provides acquisition support, administers the contract for other
agencies, or both. There are two types of interagency acquisitions, direct acquisitions and
assisted acquisitions. In a direct acquisition, the requesting activity places an order
against the servicing agency’s indefinite-delivery vehicle. The servicing agency manages
the indefinite-delivery vehicle but does not participate in the placement of an order. In an
assisted acquisition purchase, the servicing agency and requesting agency enter into an
interagency agreement where the servicing agency performs acquisition activities on the
requesting agency’s behalf. The servicing agency is responsible for awarding a contract,
task order, or delivery order and for appointing a contracting officer’s representative
(COR). The 14 Work for Others (WFO) projects we reviewed during this audit were
hybrid assisted acquisitions in that DOE contracting officers did not perform many of the
duties that they were responsible for performing.

National Nuclear Security Administration
Pursuant to the Atomic Energy Act of 1954, as amended, and the Economy Act of 1932,
DOE and its semi-autonomous National Nuclear Security Administration (NNSA),


                                                  2
established by Congress in 2000, provide research and technical assistance to other
Federal agencies on a reimbursable full-cost recovery basis through the WFO program.
NNSA is responsible for enhancing national security through the military application of
nuclear energy. NNSA maintains and enhances the safety, security, reliability, and
performance of the U.S. nuclear weapons stockpile without nuclear testing; works to
reduce global danger from weapons of mass destruction; provides the U.S. Navy with
safe and effective nuclear propulsion; and responds to nuclear and radiological
emergencies in the U.S. and abroad. NNSA manages eight sites, which are
Government-owned and contractor-operated facilities. During our audit, we reviewed
14 WFO projects that 3 of the 8 NNSA sites performed for 9 DoD requesting activities.
The three NNSA sites are the Sandia National Laboratory (Sandia), Albuquerque, New
Mexico; the Lawrence Livermore National Laboratory (Lawrence Livermore),
Livermore, California; and the Y-12 National Security Complex (Y-12), Oak Ridge,
Tennessee.

Work for Others Program
WFO is a DOE program in which NNSA personnel and/or their respective contractor
personnel perform work for non-DOE entities or where NNSA facilities are used for
work not directly funded by NNSA appropriations, per DOE Order 481.1C., “Work For
Others (Non-Department of Energy Funded Work),” January, 24, 2005. WFO has the
following objectives:

      Provide assistance to Federal agencies and non-Federal entities in accomplishing
       goals that otherwise may be unattainable and to avoid duplication of effort at
       Federal facilities;
      Provide access for non-DOE/non-NNSA entities to highly specialized or unique
       NNSA facilities, services, or technical expertise when private sector facilities are
       inadequate;
      Increase research and development interaction between NNSA facilities and
       industry;
      Transfer technology originating at NNSA facilities to industry for further
       development or commercialization; and
      Maintain core competencies and enhance the science and technology base at
       NNSA facilities.

Review of Internal Controls
We identified several internal control weaknesses as defined by DoD Instruction 5010.40,
“Manager’s Internal Control (MIC) Program Procedures,” January 4, 2006. Specifically,
for individual WFO projects, NNSA contracting officers do not:

      record detailed procurement data into the Federal Procurement Data System–Next
       Generation (FPDS-NG) database;
      make price reasonableness determinations in accordance with the Federal
       Acquisition Regulation (FAR);
      designate CORs in writing to monitor contractor performance, or


                                             3
      designate individuals to review contractor invoices.

During our review of 14 WFO projects, we determined that DoD reviews of contractor
cost estimates were inadequate and DoD officials did not support information included in
independent Government cost estimates (IGCEs). DoD also did not have assurance that
FAR requirements for obtaining certified cost or pricing data for WFO projects valued
above $650,000 were met or that monitoring of contractor performance was adequate.
We identified funding problems related to how DoD requesting activities used Research,
Development, Test, and Evaluation (RDT&E) funds. We also identified that interagency
agreements did not meet the specificity requirements of DoD Instruction 4000.19,
“Interservice and Intragovernmental Support.” DoD funding documents also did not
include a specific description of the supplies and services ordered or the delivery
requirements in accordance with section 1535, title 31, United States Code (31 U.S.C.
1535) and DoD Financial Management Regulation, volume 11A, chapter 3, “Economy
Act Orders.” Implementation of recommendations in this report should correct the
problems we identified. We will provide a copy of the report to senior officials
responsible for internal controls in the offices of the Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Under Secretary of Defense
(Comptroller)/Chief Financial Officer.




                                            4
Finding A. DoD Has Significant Contracting
Problems When Using DOE
DoD requesting activities continue to use DOE for assisted interagency acquisitions even
though DOE has not certified that it will comply with section 801 of the FY 2008
National Defense Authorization Act, Public Law 110-181 (Section 801). DOE does not
believe that Section 801 applies to reimbursable activities performed by DOE and its
contractors. Although DOE maintains that it complies with the FAR and DOE
Acquisition Regulations, DOE does not comply with the FAR and the Defense Federal
Acquisition Regulation Supplement (DFARS). Specifically, NNSA contracting officers
do not:

      record procurement data into the FPDS-NG database,
      make price reasonableness determinations,
      obtain certified cost or pricing data,
      designate CORs to monitor contractor performance, or
      designate an individual to review contractor invoices.

The Director, Defense Procurement and Acquisition Policy, has issued three Section 801
waivers permitting DoD requesting activities to use DOE to fulfill vital mission
requirements. The most recent waiver dated September 28, 2010, covers purchases made
during FY 2011, up to a total amount of $2.5 billion. (See Appendix I for the three
waivers.)

During our review of 14 WFO projects, we determined that DoD requesting activities
supported their use of DOE sites. However, we also determined that DoD requesting
activities were deficient in their oversight. They:

      performed inadequate reviews of contractor cost estimates (11 of 14 WFO
       projects),
      did not prepare IGCEs (8 of 14 WFO projects), prepared IGCEs that were not
       supported (6 of 14 WFO projects), and
      developed funding documents and interagency agreements that were not specific
       (19 of 23 DoD funding documents).

Until DoD resolves these issues, DoD requesting activities using DOE for assisted
acquisition purchases will not be in compliance with Section 801 or the FAR.
Furthermore, DoD will not have total visibility over which DoD requesting activities are
using the WFO program, what they are purchasing, what they are spending, whether they
are obtaining fair and reasonable prices, or whether contractor performance is monitored.

Contracting Officer Responsibilities Not Performed
When NNSA sites perform assisted acquisition WFO projects for DoD, NNSA
contracting officers do not perform several important contracting officer functions that


                                             5
other non-DoD agency contracting officers normally perform for DoD for assisted
acquisitions. Table 1 identifies some of these responsibilities, which the report discusses.

            Table 1. Comparison of NNSA With Other Federal Agencies

  Assisted Interagency Acquisitions By Other               Assisted Interagency Acquisitions Under
               Federal Agencies                                      DOE WFO Program

Non-DoD Servicing Agency Certifies That It Will         DOE Has Not Certified That It Will Comply
Comply With Defense Procurement Requirements            With Defense Procurement Requirements
Non-DoD Contracting Officers Record                     NNSA Contracting Officers Do Not Record
Procurement Data Into FPDS-NG Database                  Detailed Procurement Data Into FPDS-NG
                                                        Database
Non-DoD Contracting Officers Make Price                 NNSA Contracting Officers Do Not Make
Reasonableness Determinations                           Price Reasonableness Determinations
Non-DoD Contracting Officers May Be Required            NNSA Contracting Officers Are Not Required
to Obtain Certified Cost or Pricing Data                To Obtain Certified Cost Or Pricing Data
Non-DoD Contracting Officers Designate CORs             NNSA Contracting Officers Do Not Designate
                                                        CORs
Non-DoD Contracting Officers Are Responsible            No Formal Review of Contractor Invoices
For the Formal Review of Contractor Invoices            Performed


Noncompliance With Defense Procurement
Requirements
Congress enacted Section 801 of the FY 2008 National Defense Authorization Act
because of abuses related to DoD purchases made through other agencies. Section 801
reads as follows:

             (b) LIMITATION ON PROCUREMENTS ON BEHALF OF
       DEPARTMENT OF DEFENSE.—
                      (1) Except as provided in paragraph (2), an acquisition official
             of the Department of Defense may place an order, make a purchase, or
             otherwise procure property or services for the Department of Defense
             in excess of the simplified acquisition threshold through a non-defense
             agency only if—
                      (A) in the case of a procurement by any non-defense agency in
                      any fiscal year, the head of the non-defense agency has
                      certified that the non-defense agency will comply with defense
                      procurement requirements for the fiscal year;

     DOE has not certified that it          DOE has not certified that it will comply with
       will comply with Defense             Defense procurement requirements in accordance
     procurement requirements in            with Section 801. This causes an internal control
     accordance with Section 801.           problem for DoD. On October 7, 2008, the DOE
    This causes an internal control         Chief Acquisition Officer signed a Section 801
           problem for DoD.                 certification for FY 2009; however, the
                                            certification did not state that DOE would comply


                                                  6
with Defense procurement requirements. Instead, the certification states that DOE will
comply with the FAR and DOE regulations. The Section 801 certification also states that
DOE officials do not believe Section 801 applies to reimbursable activities performed by
DOE and its contractors. On October 8, 2009, the senior NNSA Procurement Executive
signed a Section 801 certification for FY 2010 that contains the same language as the
FY 2009 certification. In our opinion, the DOE FY 2009 and FY 2010 Section 801
certifications do not meet the statutory requirements of Section 801 and do not clearly
state whether DOE will comply with Defense procurement requirements. Copies of the
FY 2009 and FY 2010 DOE Section 801 certifications are located in Appendix H.

Section 801 Waivers
Subsection (b)(2) of Section 801 authorizes the Under Secretary of Defense for
Acquisition, Technology, and Logistics to make exceptions to the limitations imposed on
a non-Defense agency if determined, in writing, that “it is necessary in the interest of the
Department of Defense to continue to procure property and services through the
non-defense agency during such fiscal year.” On November 23, 2009, the Director,
Defense Procurement and Acquisition Policy, issued a Section 801 waiver to DOE. The
waiver covered DoD requirements in FY 2010 to be placed through March 31, 2010, up
to a total amount of $900 million. On March 30, 2010, the Director issued another
Section 801 waiver to cover total purchases made through September 30, 2010, up to a
total amount of $2.2 billion. On September 28, 2010, the Director issued another section
801 waiver covering FY 2011 purchases and allows DoD to place requirements through
DOE up to a total amount of $2.5 billion. We view the Section 801 waivers as a
temporary solution until DoD becomes compliant. We do not believe that the Director,
Defense Procurement and Acquisition Policy, should issue subsequent Section 801
waivers, but instead the Director should require DOE compliance or seek an alternative
solution such as making direct acquisitions from DOE contractors. Copies of the Section
801 waivers are located in Appendix I.

DoD Procurement Data Are Not Reported
NNSA contracting officers do not report DoD procurement data related to individual
WFO projects into the FPDS-NG database as required by the FAR. This situation creates
                                     an internal control problem for DoD in that DoD
   DoD management does not           management does not know which DoD requesting
  know which DoD requesting          activities use the WFO program, which NNSA sites
     activities use the WFO          they use, what they are buying, or how much they are
  program, which NNSA sites          paying. Without detailed procurement data and
     they use, what they are         adequate oversight, the possibility exists that DoD
   buying, or how much they          requesting activities may be using the NNSA sites
           are paying.               unnecessarily, using different NNSA sites for similar
                                     WFO projects at significantly different prices, and
using the NNSA sites for projects not considered a priority by management. A DOE
acquisition official stated in a January 15, 2009, NNSA memorandum that executing
specific contract modifications for individual WFO programs would be too labor
intensive. Specifically, the DOE acquisition official stated that:



                                             7
               . . . FPDS-NG is not programmed to collect multiple funding sources
               on a single transaction. Therefore, the contracting officer must execute
               multiple contract modifications in order to report actions that have
               more than one funding source. This requirement places a significant
               burden on DOE’s acquisition workforce.

Instead of entering detailed project information into FPDS-NG, NNSA enters global
contract modification information into the system. During our review of two DoD
funding documents, valued at $150,000.00 and $221,823.30, related to one WFO project,
we identified that the contract modification that included these two funding documents
also included 2,155 other funding documents, all totaling $10,700,100.92.

Applicable Criteria
The following FAR and Office of Management and Budget guidance identifies Executive
agency responsibilities for reporting and certifying procurement data into the Federal
Procurement Data System-Next Generation database.

FAR 4.603
FAR 4.603, “Policy,” states that, in accordance with the Federal Funding Accountability
and Transparency Act of 2006 (Pub. L. No. 109-282), all Federal award data must be
publicly accessible. FAR 4.603 also requires Executive agencies to use the FPDS-NG
database to maintain publicly available information about all contract actions exceeding
the micro-purchase threshold and any modifications to those actions that change
previously reported contract action report data, regardless of dollar value. In addition,
FAR 4.603 also requires agencies that award assisted or direct acquisitions to report
them.

FAR 4.604
FAR 4.604, “Responsibilities,” states that the senior procurement executive in
coordination with the head of the contracting activity is responsible for developing and
monitoring a process to ensure timely and accurate reporting of contractual actions into
the FPDS-NG database. FAR 4.604 also assigns the responsibility for the submission
and accuracy of the individual contract action report to the contracting officer who
awarded the contract action. Since NNSA contracting officers awarded the management
and operating contracts, it is their responsibility to input DoD procurement information
related to individual WFO projects into the FPDS-NG database. Failure to do so not only
violates the FAR but also conflicts with public law.

Office of Management and Budget Guidance
The Office of Management and Budget, Office of Federal Procurement Policy,
memorandum, “Improving Acquisition Data Quality — FY 2008 FPDS Data,”
May 9, 2008, requires all agencies to certify that their agency’s procurement data are in
the FPDS-NG database and that they have completed their data quality plans. On
January 15, 2009, the DOE Chief Acquisition Officer provided the Office of Federal
Procurement Policy with the DOE FY 2008 statement of FPDS-NG data verification and



                                                  8
validation as required. The DOE Chief Acquisition Officer acknowledged in the
certification that DOE has problems in reporting interagency funds placed on contracts.

No Price Reasonableness Determinations
When NNSA sites perform WFO projects for DoD requesting activities, DOE contracting
officers do not make price reasonableness determinations for the prices DoD requesting
activities pay. In other interagency audits we performed, we identified that non-DoD
contracting officers made price reasonableness determinations for assisted acquisitions
they performed for DoD. The DOE Inspector General stated in report DOE/IG-0829,
“Work for Others Performed by the Department of Energy for the Department of
Defense,” October 2009 that

               . . . an NNSA official explained that they do not make price
               reasonableness determinations or obtain certified cost or pricing data
               for individual WFO technical projects performed for DoD, or any other
               Federal customer. According to this official, the evaluation of price
               reasonableness and cost and pricing data is performed as part of the
               original award of its management and operating contract.

DoD requesting activity officials we met with also stated that they do not make price
reasonableness determinations for individual WFO projects because price reasonableness
determinations are the responsibility of the DOE contracting officer. From our
perspective, NNSA contracting officers’ price reasonableness determinations made
                                during the original award of the overall management and
    The lack of contracting     operating contracts alone does not give DoD requesting
          officer price         activities reasonable assurance that the prices they pay for
        reasonableness          individual WFO projects are fair and reasonable. The
      determinations for        lack of contracting officer price reasonableness
   individual WFO projects      determinations for individual WFO projects is not in
  is not in accordance with     accordance with the FAR. DoD needs to ensure that
            the FAR.            contracting officers make price reasonableness
                                determinations for individual WFO projects. The lack of
price reasonableness determinations for individual WFO projects causes an internal
control problem for DoD.

Applicable Criteria
The following FAR criteria identify contracting officer responsibilities for obtaining
supplies and services at fair and reasonable prices. It is important to note that DOE
contracting officers are responsible for evaluating the prices and determining the
reasonableness of prices for assisted acquisitions made under the WFO program.

FAR 15.402
FAR 15.402, “Pricing Policy,” states that contracting officers must purchase supplies and
services from responsible sources at fair and reasonable prices.




                                                 9
FAR 15.403-3
FAR 15.403-3, “Requiring Information other than cost or pricing data,” states that the
contracting officer is responsible for obtaining information that is adequate for evaluating
the reasonableness of the price or determining cost realism.

FAR 15.404-1
FAR 15.404-1, “Proposal Analysis Techniques,” states that the contracting officer is
responsible for evaluating the reasonableness of the offered prices.

FAR 15.406-3
FAR 15.406-3, “Documenting the Negotiation,” states that the contracting officer must
document in the contract file the principal elements of the negotiation agreement
including documentation of fair and reasonable pricing.

No Certified Cost or Pricing Data
The Truth In Negotiations Act (TINA) requires offerors to submit cost or pricing data if a
procurement exceeds the $650,000 TINA threshold, or cite and support one of the
exceptions to cost or pricing data. Under TINA, the contracting officer obtains accurate,
complete, and current data from offerors to establish a fair and reasonable price. TINA
also allows for a price adjustment remedy if it is later found that a contractor did not
provide accurate, complete, and current data. FAR 15.403-4, “Requiring Cost or Pricing
Data,” states that the threshold for obtaining certified cost or pricing data is $650,000.
FAR 15.403-1 (b), “Exceptions to Cost or Pricing Data Requirements,” states that
contracting officers are not required to obtain certified cost or pricing data when they
determine that:

      the prices paid are based on adequate price competition,
      the prices agreed upon are based on prices set by law or regulation,
      a commercial item is being acquired, or
      a waiver has been granted.

Of the 14 WFO projects we reviewed, 5 were valued above the $650,000 threshold
requiring certified cost or pricing data in accordance with the TINA, 10 U.S.C. 2306a,
41 U. S. C. 254(b), and the FAR. However, contracting officers did not obtain certified
cost or pricing data. According to an NNSA official, DOE Acquisition Regulation
Subpart 970.1504-3-1, “Cost or pricing data,” does not require DOE contracting officers
to obtain certified cost or pricing data for cost reimbursement management and operating
contracts. The NNSA official also stated that DOE Acquisition Regulation Subpart
970.1504-3-1 provides DOE with the “waiver” exception for not having to obtain
certified cost or pricing data. However, the NNSA procurement official was not able to
provide us with a copy of the TINA waiver document. Certified cost or pricing data for
WFO projects would be appropriate since WFO projects are, in effect, sole-source
purchases. From our perspective, DOE did not comply with TINA or the FAR.




                                            10
No CORs Designated to Monitor Contractor
Performance
NNSA contracting officers do not designate CORs in writing and do not establish roles
and responsibilities for monitoring contractor performance for individual WFO projects.
The DOE Inspector General stated in his report that:

              NNSA officials explained that they do not have either the resources or
              the special knowledge of the customer that is needed to monitor each
              WFO technical project performed for DoD. These officials also
              indicated that such services could be provided to the DoD customer,
              but that it would be provided at added cost since the Department’s
              policy is to recover the full cost of WFO work.

The limited surveillance that DoD requesting activities performed varied. However,
since DoD requesting activities did not base their contractor monitoring efforts on any
predetermined set of roles and responsibilities, we were unable to determine the adequacy
                                        of their monitoring efforts. The lack of CORs
  The lack of CORs and the absence and the absence of roles and responsibilities for
    of roles and responsibilities for   monitoring contractor performance for individual
         monitoring contractor          WFO projects cause an internal control problem
   performance for individual WFO       for DoD. On August 22, 2008, the Deputy
  projects cause an internal control    Secretary of Defense issued a memorandum titled
           problem for DoD.             “Monitoring Contract Performance in Contracts
                                        for Services,” to DoD agencies requiring them to
ensure that properly trained and ready CORs are assigned prior to contract award.
Individuals designated as CORs should have access to NNSA contractor sites and
information needed to perform their duties.

No Review of Contractor Invoices
DoD and DOE did not establish roles and responsibilities for the review of contractor
invoices. An NNSA procurement official stated that he did not believe that there is a
formal monthly review of invoices done by DoD sponsors. The procurement official also
stated that NNSA contracting officers do not review each invoice for every WFO project
because “there is not enough capacity for them to do that.” During our visit to Lawrence
Livermore, we selected 15 contractor invoices related to 6 WFO projects to review. For
5 of the 15 contractor invoices, we identified situations where the Lawrence Livermore
contractor was charging overtime as a miscellaneous charge instead of a direct labor
charge. We could not determine how long this situation had been occurring. Had CORs
been designated for the six WFO projects, they probably would have identified this
problem. When overtime is charged as an indirect expense, the overtime costs are spread
across different WFO projects as opposed to the project where the overtime occurred and
could affect the overhead rate being used. We brought this issue to the attention of the
Lawrence Livermore site contractor. We also discussed this issue at our exit conference
with NNSA and DOE Office of the Inspector General officials who were unaware of this
situation. Individuals designated to review invoices should ensure that DoD makes



                                               11
payments to NNSA contractors only for goods and services received. The individual
reviewing invoices should ensure that:

      products have been delivered or the services have been performed,
      billed items and/or services were not included in previously paid invoices,
      other direct costs have been properly substantiated,
      labor hours were billed at appropriate rates, and
      arithmetic calculations are correct.

Our review of contractor invoices required that we work closely with NNSA contractor
personnel in order to obtain information to complete our review. Likewise, individuals
designated to review contractor invoices should also have access to NNSA contractor
information needed to complete their reviews.

WFO Projects We Reviewed
We reviewed 14 WFO projects that had new or continuing requirements in FY 2008. The
14 WFO projects involved 23 DoD funding documents, valued at $9.7 million, and
9 DoD requesting activities. We reviewed interagency agreements, determination and
findings (D&F) documents, NNSA contractor cost estimate information, DoD reviews of
NNSA contractor cost information, DoD IGCEs, and DoD funding documents.
Appendix C identifies the 14 WFO projects and 23 DoD funding documents we reviewed
along with the corresponding NNSA laboratories and DoD requesting activities.

DoD Activities Made Best Interest Determinations
The Economy Act allows DoD requesting activities to place orders with a different
Military Department, Defense agency, or another Federal agency for goods or services.
DoD Financial Management Regulation, volume 11A, chapter 3, “Economy Act Orders,”
updated February 2008, prescribes policies and procedures applicable to transactions
where goods or services are procured from other Federal agencies under the Economy
Act, sections 1535 and 1536, title 31, United States Code. FAR 17.503, “Determinations
and findings requirement,” states that each Economy Act order shall be supported by a
D&F that states the use of an interagency acquisition is in the best interest of the
Government, and the supplies or services cannot be obtained as conveniently or
economically by contracting directly with a private source.

Thirteen of the 14 WFO projects we reviewed were subject to the Economy Act. The
13 projects had the required D&F and each stated that the use of an interagency
acquisition was in the best interest of the Government and that the supplies or services
cannot be provided as conveniently or economically by contracting directly with a private
source. The 13 D&Fs also described the capabilities of the NNSA sites. The other WFO
project was subject to the Government Employee Training Act and did not require a
D&F. The DoD requesting activity prepared a Justification for Selection document that
described why the DoD activity selected the NNSA site. We determined that the
Justification for Selection document was inadequate because it was not signed or dated.
One of the DoD requesting activities we visited, the Defense Threat Reduction Agency
(DTRA), took additional steps to support its use of NNSA sites. DTRA required its


                                           12
program managers to prepare “Justification for Selection” memoranda that address six
questions:

      Can the work be performed by the private sector?
      Why is it more effective to have the work performed by a Government agency?
      Were other alternatives considered to satisfy this requirement?
      What are the qualifications of the selected servicing agency?
      Will significant elements of the work be contracted out or be done in-house?
      Is there a service fee/charge?

The DTRA contracting officer used the information in the Justification for Selection
document to prepare the D&F supporting the use of NNSA sites. Other DoD requesting
activity officials we met with described market research efforts they performed; however,
they did not document their market research efforts. Accordingly, we were unable to
determine the adequacy of their market research efforts.

Inadequate DoD Reviews of Contractor-Proposed Costs
For 11 of 14 WFO projects reviewed, DoD requesting activities performed inadequate
reviews of contractor cost estimates. The DoD requesting activities’ pricing reviews
were inadequate because they did not base their reviews on detailed cost information and
because there was some confusion as to whether NNSA contractors were required to
provide DoD requesting activities with detailed cost information. In some situations,
there was no evidence that the DoD requesting activity even reviewed contractor prices.
During our review of the 14 WFO projects, we saw only one instance where a DoD
requesting activity asked a NNSA contractor for more detail. In that situation, the DoD
requesting activity asked the Sandia contractor to provide additional detail. However, the
contractor provided only limited data to the DoD requesting activity. The lack of detailed
contractor cost data causes an internal control problem for DoD that needs to be resolved.
                             From our perspective, DoD reviews of contractor costs, at a
   The lack of detailed      minimum, should detail the assessment of the need for the
   contractor cost data      number of labor hours, the labor mix, and the quantities and
    causes an internal       kinds of materials proposed. Table 2 provides two examples
   control problem for       of cost information that DoD requesting activities provided
  DoD that needs to be       to us for two WFO projects performed by Lawrence
         resolved.           Livermore that we reviewed. The cost information that the
                             DoD requesting activities provided to us lacked detail, and
we did not see any indication that the DoD requesting activities asked for more detail.
We know that detailed cost information existed for these two WFO projects because we
obtained the detailed data during our visit to Livermore.




                                           13
                     Table 2. Cost Information That Lacked Detail

                                            Example 1

                                        Estimated Cost
               The cost of each of the four tasks described above is as follows:

                                 Task 1 $ 40,000
                                 Task 2 $160,000
                                 Task 3 $400,000
                                 Task 4 $400,000
                                         Example 2

                Description                                          Costs
      Manpower
       Mission support including post mission activities             $100,000


Limited Access To Detailed Contractor Cost Information
During our review of DoD records, we obtained documentation indicating that the NNSA
policy was not to provide DoD requesting activities with detailed cost information related
to individual WFO projects. For example, according to an NNSA contracting officer
memorandum sent to a DoD requesting activity:

               Sandia’s specific over head cost recovery rates and individual salary
               rates are proprietary information and are generally not released
               externally. However, because of its contractual relationship with DOE,
               Sandia’s operations and accounting practices are fully auditable by the
               DOE Inspector General (DOE IG) on a regular basis, as well as by
               Sandia Corporation’s Internal Audit Department.            Sandia has
               established protocols for DOE IG audits of Sandia operations,
               consistent with the terms and conditions of the contract.

               Therefore, it is DOE/NNSA policy, to not provide detailed cost
               information. Rather, the review and approval by DOE/NNSA of rate
               information proposed by Sandia, and the oversight efforts by DOE on
               Sandia indirect rates, should satisfy, in DOE/NNSA’s opinion, your
               requirements for price reasonableness determinations.


According to information that a NNSA contracting officer provided to a DOE-IG auditor
during their audit, the decision to withhold detailed cost information from customers is as
follows:

               The Y-12 Site Office does not provide detailed cost information on
               WFO projects to their customers. We provide direct cost information
               at a higher level such as labor costs, material costs, travel costs,
               subcontracting costs, etc. When requested by another federal agency
               to provide detailed cost information, we explain to them that the direct
               and indirect rates are the same for them as they are for DOE and that
               the rates will not change. These rates have already been approved by
               DOE and the costs are what they are – the federal agency is coming to



                                                 14
               DOE because they cannot get this work from the domestic private
               sector. The costs are not negotiable. By providing this detailed cost
               information, we are allowing the other federal agencies to question
               every rate. We will be spending more time and effort explaining to
               them why every detailed rate is what it is and why DOE is not going to
               change the rate for another customer. This simply is not cost-effective
               and allows for scrutiny from the customer.

One DoD requesting activity we visited identified a long history of tension with Sandia
relating to not being able to obtain detailed cost information and transferred a WFO
project from Sandia to the NNSA Idaho National Laboratory. A DoD requesting activity
official stated:

               Obtaining the cost breakdown information that is required to effectively
               justify the costs that are being proposed by Sandia’s Project Activity
               Statement (PAS) has been extremely difficult and time consuming.
                . . . Business Development, as well as the Program Management
               requires detailed information in order to prepare the Justification for
               Selection, Technical Evaluation, and eventually the Determination and
               Findings.
                         .        .        .       .       .        .         .
               Sandia has been extremely reluctant to provide any additional
               information, and if they do, they will only provide this information
               verbally.

However, during our visits to Y-12 and Lawrence Livermore in December 2009, NNSA
and contractor officials were eager to provide us with detailed cost information they had
prepared for WFO projects we reviewed. They also went to great lengths to explain how
they determine costs for individual WFO projects. NNSA and contractor officials
explained that NNSA contractors usually prepare two cost estimates for individual WFO
projects. One of the cost estimates is not detailed. NNSA provides this cost estimate to
DoD requesting activities. The other cost estimate, the cost estimate worksheet (CEW),
is very detailed; however, according to NNSA and contractor officials, the CEW is an
internal document and NNSA does not provide the CEW to DoD requesting activities.
The CEWs we reviewed included information such as labor rates, labor hours, material
costs, travel, subcontract costs, general and administrative expenses, etc., which we
believe is the level of detail that DoD requesting activities should have for their reviews
of contractor cost estimates. NNSA and contractor officials located at Y-12 and
Lawrence Livermore stated that they did not have a problem providing detailed cost
information such as the information contained in the CEWs to DoD requesting activities,
if approved to do so by senior NNSA officials. NNSA and contractor officials at
Lawrence Livermore and Y-12 also provided documentation showing that their
contractor charges DoD requesting activities the same rates as other Federal and NNSA
customers. We believe that DoD requesting activities should not proceed with WFO
projects until asking for, receiving, and reviewing detailed cost information related to
their individual WFO projects. The DOE IG identified in his report the importance of
DoD requesting activities’ access to detailed cost information. The DOE-IG stated in his
report that:




                                                 15
              Without detailed cost and pricing information, DoD customers may not
              be able to obtain all pricing information they believe is necessary to
              satisfy defense procurement regulation requirements.
                        .       .        .        .        .       .         .
              According to an NNSA procurement official, cost information at the
              Department’s facility and management contractors is Federal
              information and is available to other Federal agencies. This official
              also agreed that WFO agreements should clearly define roles and
              responsibilities of the Federal partners for overseeing the facility
              contractors’ performance. Accordingly, NNSA issued guidance on
              August 26, 2009, to its site offices regarding the availability of cost
              information to Federal agencies and roles and responsibilities on WFO
              agreements.

The DoD requesting activities’ lack of detailed cost data for individual WFO projects and
their inadequate reviews of contractor costs causes an internal control weakness for DoD.
However, recent actions taken by senior-level NNSA officials should correct the
problem. In addition, it is important to note that DoD requesting activities are
responsible for specifying to NNSA the exact information they need and to show where
they have reviewed the information. Appendix D lists the 11 of 14 WFO projects
reviewed where DoD requesting activities proceeded with WFO projects before obtaining
and reviewing detailed NNSA contractor cost information.

Unsupported Independent Government Cost Estimates
DoD requesting activities did not prepare adequate IGCEs for any of the 14 WFO
projects we reviewed. For eight WFO projects, DoD requesting activities did not prepare
IGCEs. For six WFO projects, DoD requesting activities prepared IGCEs; however, they
were inadequate because they did not identify the basis for the estimated information or
were not signed or dated. In one situation, the IGCE was the same as the NNSA
contractor’s cost estimate. For the eight other WFO projects, DoD requesting activities
did not document why they did not prepare an IGCE. For IGCEs to be of any use in the
review of prices, the information contained in them needs to be supported. Table 3
identifies the specific issues we found related to IGCEs that were prepared.




                                                16
                  Table 3. Independent Government Cost Estimate Issues

    NNSA Proposal Information                IGCE           DoD Activity                Issues
                                            Amount
                                        Sandia National Laboratory
1) Proposal 041031209-3                    $94,000.00     Naval Surface       √ IGCE not supported
Update and revise Sandia intrusion                        Warfare Center,     √ IGCE not signed or dated
detection report produced in 2006                         Panama City, FL

2) Proposal 059080812-0                    204,894.00     Headquarters        √ IGCE not supported
Dynamic explosive training site                           (HQ) Air Force      √ IGCE not dated
(DETS) training course                                    Civil Engineering
                                                          Support Agency
                                                          Tyndall Air Force
                                                          Base (AFB), FL
                                     Y-12 National Security Complex
3) Proposal 2276-Z042-06                  3,236,763.00    DTRA                √ IGCE not supported
Eagle Eyes                                                Fort Belvoir, VA    √ IGCE not signed or dated

4) Proposal 2276-Z081-07                  2,536,609.00    DTRA                √ IGCE not supported
Radiation detector testing and                            Fort Belvoir, VA    √ IGCE not signed or dated
development

5) Proposal 2276-Z241-08                   745,684.00     DTRA                √ IGCE not supported
Smart threads integrated radiological                     Fort Belvoir, VA    √ IGCE not signed or dated
sensor (STIRS) program

                                           102,000.00     DTRA                √ IGCE not supported
6) Proposal 2276-Z151-08                                                      √ IGCE not signed or dated
                                                          Fort Belvoir, VA
Radiological Field Training Exercise


DoD Funding Documents Lacked Specificity
For 19 of the 23 DoD funding documents reviewed, the funding documents did not meet
the specificity requirements of DoD Instruction 4000.19, 31 U.S.C. 1535, or DoD
Financial Management Regulation, volume 11A, chapter 3. The funding documents did
not meet the specificity requirements such as a description of the services requested and
the period of performance. Instead, DoD funding documents identified NNSA contractor
proposal numbers, project names, or references to the statement of work and did not
include the period of performance. Many of the funding documents did not identify the
entire period of performance but only when the period of performance was to end.
Appendix E identifies the 19 of 23 DoD funding documents that lacked specificity.

DoD Instruction 4000.19
DoD Instruction 4000.19, “Interservice and Intragovernmental Support,” implements
policies, procedures, and responsibilities for intragovernmental support as a result of
agreements among Federal Government activities. According to DoD
Instruction 4000.19, recurring interservice and intragovernmental support that require
reimbursement shall be documented on DD Form 1144, “Support Agreement,” or a


                                                     17
similar format that contains all of the information required on DD Form 1144. The
information should include a specific description of the supplies and services purchased
and the delivery date or period of performance of when the purchase is to occur. None of
the 14 WFO projects we reviewed included a DD Form 1144. Seven of the 9 DoD
requesting activities that we visited or contacted stated that they used the Military
Interdepartmental Purchase Requests (MIPRs) in lieu of the DD Form 1144 as the
interagency agreement. Accordingly, we used the 23 DoD MIPRs to determine whether
the MIPRs met the specificity requirements of DoD Instruction 4000.19.

Section 1501, Title 31, United States Code
Section 1501, title 31, United States Code, “Documentary Evidence Requirement for
Government Obligations,” states that to establish a valid obligation and satisfy
requirements, an agency has to be specific in defining its requirements.

DoD Financial Management Regulation, Volume 11A, Chapter 3
DoD Financial Management Regulation, volume 11A, chapter 3, states that Economy Act
orders shall be specific, definite, and certain as to both the work encompassed by the
order and the terms of the order itself. An Economy Act order should include a
description of the supplies and services ordered, delivery requirements, a funds citation,
payment provisions, and acquisition authority.

Other Issues
During the audit, we also identified some other issues that merit attention. Specifically,
NNSA contractors performed work beyond the period of performance and DoD
requesting activities did not maintain detailed files for individual WFO projects. On
June 6, 2008, the Office of Management and Budget, Office of Federal Procurement
Policy, issued new guidance related to interagency acquisitions in a memorandum titled
“Improving the Management and Use of Interagency Acquisitions.”

Work Performed Beyond Period of Performance
For 3 of the 14 WFO projects reviewed, NNSA contractors continued to perform work
beyond the period of performance without any written authorization to do so. Lawrence
Livermore performed two of the three WFO projects, and Y-12 performed the other WFO
project. Table 4 identifies these three WFO projects.

               Table 4. Work Performed Beyond Period of Performance

                                             Statement of Work          Contractor
     Contractor
                      DoD MIPR No.          Period of Performance       Performed
    Proposal No.
                                                  End Date              Work Until
      L12162        F4FDAG8179G002                3-15-2009               11-2009
      L11925        F4DEB18246G001                9-30-2008                5-2009
    2276-Z04206     IACRO 09-46768I               9-30-2009               10-2009




                                            18
Lack of Good Documentation
DoD requesting activities did not maintain detailed files for individual WFO projects.
Instead, DoD requesting activity officials we met with gathered WFO documentation for
us from computers, e-mails, and in some cases from the desks of DoD requesting activity
personnel. DoD requesting activities should maintain files for individual WFO projects,
and the files should include documents such as D&Fs, funding documents, contractor
cost estimates, DoD program office reviews of contractor cost estimates, contracting
officer’s price reasonableness determinations, COR letters and training certificates, DOE
points of contact, e-mails, and any other pertinent information. In its Contract Pricing
Guide, dated September 16, 2002, Defense Procurement and Acquisition Policy states:

              Need for Good Documentation. Good documentation is essential to
              good contracting. As time goes on, you forget times, dates, persons
              involved, and other elements that are important in all aspects of
              contracting and pricing in particular. While fresh in your mind, you
              should document:

                     Events;
                     Actions; and
                     Decisions.

              Problems from Poor Documentation. Lack of good documentation can
              create serious problems. Since you will not always be available to
              explain what you did, or why, other contracting personnel will not
              know what happened, or about any special circumstances that may have
              affected your decisions. If your files lack proper documentation:

                     Other contracting personnel may take the time to accomplish
                      an action or make a decision that you have already completed.
                      These actions or decisions may conflict with yours.

                     Legal advisors and management review teams may question
                      your action or lack of action because they do not have all of
                      the relevant information.

                     You will find that the lack of documentation is generally
                      treated as a lack of action. If it is not documented, it never
                      happened.

Improving the Management and Use of Interagency Acquisitions
On June 6, 2008, the Office of Management and Budget, Office of Federal Procurement
Policy issued new guidance related to interagency acquisitions in a memorandum titled,
“Improving the Management and Use of Interagency Acquisitions” (June 6, 2008, OMB
Guidance). The guidance focuses on clear lines of responsibilities between agencies with
requirements (DoD) and the agencies that provide acquisition support (DOE). The
guidance focuses on the clear identification of roles and responsibilities for requesting
agencies and servicing agencies. Included in the guidance are roles and responsibilities
for determining price reasonableness, designating CORs, and designating individuals to
review invoices, which were also areas where we identified problems. We did not see



                                               19
any evidence in the interagency guidance that exempts DOE from following it. A copy
of the memorandum is located in Appendix G.

Unconventional Procedures for Adding Defense Procurement
Requirements to WFO Projects
According to the June 6, 2008, OMB Guidance, DoD requesting activities are responsible
for apprising the servicing agency of all terms, conditions, and requirements to be
incorporated into the contract/order as necessary to comply with the statutes, regulations,
and directives that are specific to the requesting agency. The servicing agencies are
responsible for ensuring that requesting activity-specific laws, restrictions, data
collection, and reporting requirements that have been identified by the requesting activity
are followed. The servicing agency should also work with the requesting agency to
mutually agree to appropriate contract clauses addressing customer-specific laws and
policies. The DOE Inspector General stated in his report that:

               Although NNSA does not believe that it is appropriate to modify
               existing contracts to incorporate defense procurement requirements, an
               NNSA official stated that specific defense procurement requirements
               can be incorporated into the interagency agreement for a WFO
               technical project.

DoD requesting activities need to be aware of their responsibility for apprising NNSA of
all terms, conditions, and requirements that they want NNSA to incorporate into WFO
interagency agreements.

Reasons for Contracting Problems
The problems we identified occurred because DOE does not believe that Section 801
applies to reimbursable activities performed by DOE and its contractors and because
DoD contracting officers’ involvement in WFO projects was very limited. While
DoD Financial Management Regulation, volume 11, chapter 18, requires DoD
contracting officers to review non-Economy Act orders above $500,000, volume 11,
chapter 3 does not require DoD contracting officers to review Economy Act orders such
as WFO projects. DoD contracting officer involvement in the 14 WFO projects we
reviewed was quite limited. The exception was DTRA. During a site visit, DTRA
contracting officers provided us with detailed documentation supporting their reviews of
contractor cost information for individual WFO projects. While their analyses was
detailed and had many of the aspects of a price reasonableness determination, the DTRA
contracting officers stated that the NNSA contracting officer was required to make a final
determination of price reasonableness. As a result of the contracting issues we identified,
we believe that DoD contracting officers need to be as involved in reviewing WFO
projects that fall under the Economy Act as they are required to be involved for non-
Economy Act orders. Furthermore, we believe that if DoD contracting officers become
more involved and, in particular, use the direct acquisition approach instead of the
assisted acquisition approach, many of the problems we identified in this report could be
resolved. More DoD contracting officer involvement in WFO projects will give DoD
greater assurance that DoD is complying with Section 801 requirements, Defense
procurement requirements, and that DoD is obtaining best value when using DOE.


                                                20
Management Actions
On September 16 and 17, 2010, DOE and DoD officials signed a memorandum of
agreement that defines the working relationship between DoD and DOE for work
undertaken in support of and directly funded by the DoD under the DOE WFO program.
The memorandum is located in the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics management comments (page 58). In addition,
on September 24, 2010, the Director, Defense Procurement and Acquisition Policy,
issued a policy memorandum to DoD Components that addresses significant problems we
identified during the audit.

Conclusion
DoD requesting activities can benefit from well-executed interagency acquisitions and
the expertise that DOE can provide. However, until DOE and DoD correct the
contracting problems we identified, DoD requesting activities using DOE will not be in
compliance with Section 801, the FAR, or the June 6, 2008, OMB Guidance. The
Director, Defense Procurement and Acquisition Policy, Section 801 waiver is a
temporary solution that will allow DoD requesting activities to continue to use DOE until
DoD and DOE resolve these problems.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics either obtain certification from the Department of
Energy regarding Section 801 requirements or work with the Department of Energy
to develop alternative plans to make direct purchases from National Nuclear
Security Administration sites. Use of direct purchases would alleviate most of the
problems identified in this report. If the Department of Energy certifies that it will
comply with Defense procurement requirements, DoD needs to ensure that:

       a. Detailed DoD procurement data related to individual Work for Others
projects is entered into the Federal Procurement Data System-Next Generation
database.

       b. Price reasonableness determinations are made for all Work for Others
projects.

       c. Contracting officer’s representatives are designated for individual Work
for Others projects.

       d. Individuals are designated to review contractor invoices.




                                           21
Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Director, Defense Procurement and Acquisition Policy, provided comments on
behalf of the Under Secretary of Defense for Acquisition, Technology, and Logistics. The
Director partially agreed with our recommendation. The Director stated that DOE and
DoD will conduct a study by January 2011 to determine whether the direct purchase
approach is feasible. The Director also provided us with a copy of a memorandum of
agreement developed in conjunction with the DOE and signed on September 16, and 17,
2010 (see page 58). Among other things, the memorandum of agreement states that DOE
and DoD will jointly develop reporting requirements outside of FPDS-NG, and DOE will
standardize quarterly data reporting to DoD in support of technical project manager
functions.

Our Response
The Director of Defense Procurement and Acquisition Policy’s comments are partially
responsive. The use of the direct purchase approach would alleviate the problems
identified in this report, including Recommendation A.1.a, if implemented. The FAR is
clear on the requirements for entering procurement data into the FPDS-NG database, and
reporting data quarterly to DoD in an abbreviated form would not provide the visibility
envisioned when the FPDS-NG was created. Furthermore, it is unnecessary to develop a
duplicate system instead of using the mandated one. In the event that DoD and DOE
cannot agree to a direct purchase approach, DOE still needs to be required to follow the
FAR. We request the Director provide us the results of the January 2011 study and
details on how procurement data will be input into the FPDS-NG database.

A.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics establish a requirement that DoD warranted contracting
officers review all Economy Act Work for Others orders greater than $500,000
prior to sending the order to the funds certifier or issuing the Military
Interdepartmental Purchase Request to the Department of Energy if DOE certifies
compliance with Section 801 requirements and continues to provide assisted
acquisition support.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Director, Defense Procurement and Acquisition Policy, provided comments on
behalf of the Under Secretary of Defense for Acquisition, Technology, and Logistics.
The Director agreed with the recommendation. On September 24, 2010, the Director
issued a memorandum to DoD Components requiring DoD-warranted contracting
officers to review any WFO projects in excess of $100,000 before DoD sends funds to
DOE, regardless of whether DOE certifies compliance with Section 801 requirements.

Our Response
The Director of Defense Procurement and Acquisition Policy’s comments are responsive,
and the actions meet the intent of our recommendation.


                                           22
A.3. We recommend that the Acquisition Executives for the Army, Navy, Air Force,
and the Director, Defense Threat Reduction Agency make DoD requesting activities
aware of their responsibilities for obtaining and reviewing detailed cost information
for individual Work for Others projects including certified cost or pricing data,
when applicable.

Department of the Army Comments
The Department of the Army did not provide comments for this recommendation.

Our Response
We are requesting that the Department of the Army provide comments to this
recommendation.

Department of the Navy Comments
The Director, Program Analysis and Business Transformation, issued comments on
behalf of the Deputy Assistant Secretary of the Navy (Acquisition & Logistics
Management). The Director partially agreed with our recommendation. The Director
stated that the responsibility to obtain and review certified cost or pricing data and
determine fair and reasonable prices lies with the WFO contracting officer of the
servicing agency (DOE), and not the requesting activity. The Director also stated that
that the requesting agency is most often in the best position to provide technical
evaluations and advice on contractor cost proposals to make price determinations, but it is
the contracting officer’s responsibility to decide the scope and detail of the advice
needed. The Director added that rarely, if ever, will the requesting agency need access to
direct labor and overhead rates, which are typically part of the certified cost or pricing
data that the contracting officer obtains. The Director agreed that the basis for WFO cost
estimates needs to be provided to DoD customers and that the Office of the Secretary of
Defense needs to work with DOE to obtain an agreement on the scope and level of detail
of that information.

Our Response
The Director, Program Analysis and Business Transformation’s comments for the Navy
are generally responsive. We agree that DOE contracting officers are ultimately
responsible for making price reasonableness determinations for individual WFO technical
projects. However, it is important to note that DOE contracting officers do not make
price reasonableness determinations for individual WFO projects. We also agree that the
requesting activities are most often in the best position to perform technical evaluations.
However, requesting activities need access to labor rates, labor hours, material costs,
travel, subcontract costs, and general and administrative expenses in order to perform
adequate reviews of DOE contractor cost proposals.

On September 24, 2010, the Director, Defense Procurement and Acquisition Policy
issued a memorandum to all DOD activities, including the Navy, that established policy
for DoD contracting officers. The policy requires DoD contracting officers to review
each requirement in excess of $100k designated for performance by the Department of



                                            23
Energy and to ensure that each interagency agreement documents cost/price
reasonableness, DoD contracting officers are also required to ensure that DoD has
prepared an independent Government cost estimate and that the cognizant DoD technical
project manager/Contracting Officer’s Representative reviews detailed cost data DOE
provides to DoD to ensure that the hours and skill mix proposed are reasonable for the
tasks to be accomplished. This policy coupled with the DOE and DoD memorandum of
agreement which requires DOE to provide detailed cost data to DoD and the Navy’s
comments to our report leads us to conclude that the Navy will comply with the
recommendation.

Department of the Air Force Comments
The Department of the Air Force did not provide comments for this recommendation.

Our Response
We are requesting that the Department of the Air Force provide comments to this
recommendation.

Defense Threat Reduction Agency Comments
DTRA agreed with the recommendation. The Director stated that DTRA will ensure
personnel involved in initiating WFO projects with DOE are aware of their
responsibilities for obtaining and reviewing detailed cost information. The Director also
confirmed the recommendation is consistent with DTRA’s current policies and
procedures. The Director also stated DTRA would develop a specific management
control plan in this area to continue enforcing best practices, as well as request that DOE
laboratories consistently provide detailed cost information that includes certified cost or
pricing data.

Our Response
The Director of DTRA’s comments are responsive, and the actions meet the intent of the
recommendation.




                                            24
Finding B. Potential Bona Fide Needs Rule
Violations
DoD requesting activities did not always follow the bona fide needs rule for WFO
projects. Funds that had expired and were no longer available for new obligations were
used to pay for WFO projects. This issue occurred because of the lack of defined policy
in the FAR and the DoD Financial Management Regulation regarding the use of RDT&E
funds. Potential bona fide needs rule violations and the use of appropriated funds after
they have expired and were no longer available for new obligations occurred for 8 of the
23 DoD funding documents we reviewed. This resulted in 31 potential Antideficiency
Act violations, valued at $641,188.42.

Applicable Criteria
The following criteria were relevant to our analysis of 23 DoD funding documents used
to pay for the 14 WFO projects we reviewed.

Antideficiency Act
Congress passed the Antideficiency Act to curb the fiscal abuses that frequently created
“coercive deficiencies” that required supplemental appropriations. The Antideficiency
Act consists of several statutes that include administrative and criminal sanctions for the
unlawful use of appropriated funds (31 U.S.C. 1341, 1342, 1350, 1351, and 1511–1519).
These statutory provisions enforce the Constitutional budgetary powers entrusted to
Congress with respect to the purpose, time, and amount of expenditures made by the
Federal Government. Violations of other laws may trigger violations of Antideficiency
Act provisions, such as the “bona fide needs rule,” 31 U.S.C. 1502(a). Violations of the
Antideficiency Act may result in administrative and/or criminal sanctions against those
responsible.

Bona Fide Needs Rule
Appropriations are generally available for limited periods. An agency must incur a legal
obligation to pay money within an appropriation’s period of availability. If an agency
fails to obligate funds before they expire, they are no longer available for new
obligations. Expired funds retain their “fiscal year identity” for 5 years after the end of
the period of availability. During this time, the funds are available to adjust existing
obligations or to liquidate prior valid obligations. However, expired funds are not
available for new obligations nor can they be used for new requirements.
Appropriations are available for the bona fide needs of an appropriation’s period of
availability (31 U.S.C. 1502[a]). The bona fide needs rule states:


               The balance of an appropriation or fund limited for obligation to a
               definite period is available only for payment of expenses properly
               incurred during the period of availability or to complete contracts
               properly made within that period of availability and obligated
               consistent with section 1501 of this title. However, the appropriation or



                                                 25
                 fund is not available for expenditure for a period beyond the period
                 otherwise authorized by law.

DoD Financial Management Regulation Guidance
Annual Appropriation Acts define the use of each appropriation and set specific timelines
for use of the appropriations. The DoD Financial Management Regulation, volume 2A,
chapter 1, provides guidelines on the most commonly used DoD appropriations for
determining the correct appropriation to use when planning acquisitions. The WFO
projects we reviewed were subject to the Economy Act. DoD Financial Management
Regulation, volume 11A, chapter 3, applies to the Economy Act. Chapter 3 does not
state that performance of severable services must begin during the funds period of
availability, as chapter 18 states. In addition, chapter 3 and chapter 18 do not provide
guidance on how to fund severable and nonseverable contracts involving multiple-year
appropriations.

DoD Financial Management Regulation, volume 11A, chapter 3, paragraph 030404,
“Appropriation Policy,” states that,

                 an Economy Act order obligates the applicable appropriation of the
                 requesting agency or unit upon acceptance of the order by the servicing
                 agency. The entire amount of a reimbursable order should be obligated
                 by the requesting agency when the order is accepted.

It also states that:

                 it is critical that activities reconcile the obligation status of Economy
                 Act orders and deobligate unused funds, as needed, before the end of
                 the funds availability. Funds must be deobligated by both the
                 requesting and servicing agency to the extent that the servicing agency
                 or unit filling the order has not, before the end of the period of
                 availability of the appropriation of the requesting or ordering agency,
                 (1) provided the goods or services, or (2) entered into an authorized
                 contract with another entity to provide the requested goods or services.

RDT&E Appropriations
RDT&E requirements, including designing prototypes and processes, should be budgeted
using RDT&E appropriations. In general, all developmental activities included in
bringing a program to its objective system are to be budgeted in RDT&E. RDT&E funds
are available for obligation for 2 years.

O&M Appropriations
Expenses incurred in continuing operations and current services are budgeted in
Operations and Maintenance (O&M) appropriations. Modernization costs under
$250,000 are considered expenses, as are one-time projects, such as development of
planning documents and studies. O&M funds are available for obligation for 1 year.
According to 10 U.S.C. 2410a, the performance of severable services can begin in one
fiscal year and end in the next provided the period of performance does not exceed
12 months. However, Government Accountability Office (GAO) Decision B-317636,


                                                   26
“Severable Services Contracts,” April 21, 2009, indicates that the use of 10 U.S.C. 2410a
is limited to severable contracts funded by annual appropriations.

Air Force Instruction 65-601
Air Force Instruction 65-601, “Budget Guidance and Procedures,” March 3, 2005,
implements the DoD budget policy for RDT&E contracts. The instruction limits the use
of RDT&E appropriations in the second year to specific circumstances, such as cost
growth, that do not involve a change to the scope of requirements that were a bona fide
need of the appropriation year. The appropriation year is the first year of the 2-year
appropriation period, not the second year.

Defense Acquisition Regulations
Neither the FAR nor the DFARS provide sufficient guidance on how to fund contracts
using multiple-year appropriations. According to FAR 32.703, “Contract Funding
Requirements,” if the contract is fully funded, funds are obligated to cover the price or
target price of a fixed-price contract or the estimated cost and any fee of a cost-
reimbursement contract. If the contract is incrementally funded, funds are obligated to
cover the amount allotted and any corresponding increment of fee. However, the FAR
does not provide enough guidance on when contracts should be incrementally or fully
funded.

DFARS 232.702, “Policy,” states that fixed-price contracts shall be fully funded except
as permitted by DFARS 232.703-1, “General.” According to DFARS 232.703-1(1), a
fixed-price contract may be incrementally funded if the contract is for severable services.
However, DFARS 232.7 does not provide any guidance on the procedures for funding
other types of contracts. The 14 WFO projects we reviewed were performed under cost-
reimbursement contracts.

Inappropriate Use of RDT&E and O&M Funds
During previous interagency audits, we identified significant funding problems related to
the inappropriate use of O&M funds. The use of O&M funds is limited and only
available for new obligations for 1 year. During this interagency audit, we identified
potential funding problems primarily involving the use of RDT&E funds. These funds
are multiple-year funds and available for use for new obligations for 2 years. We were
                                             unable to determine the magnitude of the
    However, based on the number of          funding issues we identified. However, based
  potential funding violations we found      on the number of potential funding violations
  in the relatively small number of DoD we found in the relatively small number of
     funding documents reviewed, we          DoD funding documents reviewed, we believe
    believe potential funding problems       potential funding problems involving DoD
  involving DoD funds sent to DOE are funds sent to DOE are significant.
                 significant.                Accordingly, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer needs to determine the magnitude of the problem
and take appropriate actions to correct the problems. The following are specific funding
problems we identified. Appendix F is a summary of the 31 potential funding violations
we identified.


                                            27
Large Scale Social Simulation WFO Project
On August 4, 2008, the Navy Engineering Logistics Office, Arlington, Virginia, issued
MIPR N4175608GO18508 to provide incremental funds of $734,972 for a Large Scale
Social Simulation WFO project, with an overall value of $1.8 million. The WFO project
was performed under DOE Proposal Number 063080731. Sandia accepted MIPR
N4175608GO18508 on August 29, 2008. MIPR N4175608GO18508 cited 9780400
funds, which were FY 2008 Defense-wide RDT&E funds. These funds are 2-year funds,
and were available for new obligations until September 30, 2009. According to the
statement of work, the contractor was to deliver the prototype software tool to include all
necessary software source code, technical data, servers, databases, connections, and other
elements necessary to operate, use, and maintain the system. Based on this description,
we believe that the WFO project was for nonseverable services since the services were
related to a specified end product. According to GAO decision B-317139 dated June 1,
2009, (the June 1, 2009, GAO Decision), “a nonseverable service is one that requires the
contractor to complete and deliver a specified end product.” It also states that “whether a
contract is for severable or nonseverable services affects how the agency may fund the
contract; severable services contracts may be incrementally funded, while nonseverable
services contracts must be fully funded at the time of the award of the contract” absent
specific statutory authority. Accordingly, the Navy should have fully funded the entire
$1.8 million amount up front. We determined that a potential bona fide needs rule
violation existed, because the Navy inappropriately incrementally funded a nonseverable
WFO project.

Dynamic Explosive Training Site WFO Project
On August 18, 2008, Headquarters, Air Force Civil Engineer Support Agency, Tyndall
Air Force Base, Florida, issued MIPR F4ATA78231G004 to provide $210,300 of funds
to Sandia. The funds were for a WFO project to provide Air Force explosive ordinance
disposal technicians three courses related to Dynamic Explosive Training Site training
and practical exercises. The NNSA contractor performed this WFO project under DOE
Proposal Number 059080812-0. Sandia accepted MIPR F4ATA78231G004 on
August 27, 2008. MIPR F4ATA78231G004 cited 5783400 funds, which are Air Force
FY 2008 O&M funds. These funds are 1-year funds and were available for new
obligations until September 30, 2008. According to DoD Financial Management
Regulation, volume 3, chapter 8:

               Training courses that begin on or after 1 October may constitute a bona
               fide need of the prior year if the need for training is an immediate need
               in the prior year and if the commencement of the course in the next
               fiscal year is beyond the agency’s control. The time between award of
               the contract for the training and performance the training should not be
               excessive.

The Air Force did not support that the training courses were an immediate need in
FY 2008 in accordance with DoD Financial Management Regulation, volume 3,
chapter 8. In fact, MIPR F4ATA78231G004 did not even identify when the classes
would occur. Instead, the MIPR stated that the presentation of the classes would occur
on a future date to be determined by the customer. Other documentation identified that


                                                 28
the training classes would occur in FY 2009. In addition, the time between when the
Air Force sent MIPR F4ATA78231G004 to Sandia and when the classes occurred was
excessive. For example, the classes did not occur until December 19, 2008; April 17,
2009; and June 26, 2009. We also determined that the statutory exception to the bona
fide needs rule contained in 10 U.S.C. 2410a did not apply because the Air Force did not
demonstrate that performance began in FY 2008. While $13,742.97 was expended on
September 19, 2008, information we obtained showed that the costs did not have to be
expended then. According to a Sandia official, the $13,742.97 cost was:

              Associated to the Site 9940 training facility. Any project utilizing this
              facility is charged for that usage in order to cover general maintenance
              and upkeep.
                        .        .         .        .        .       .        .
              For smaller projects we customarily take out the usage fee as soon as
              the money comes in. This is not mandatory but gives the project lead a
              better understanding of how much they really have to work with and
              avoids any overages late in the project.

Accordingly, we believe this FY 2009 bona fide need should have been satisfied by using
FY 2009 O&M funds. Table 5 identifies MIPR and invoice information. The third
column identifies that the funds expired on September 30, 2008, and were no longer
available for new obligations. The twelve dates in column five that are shaded identify
situations where the contractor performed work and incurred costs after September 30,
2008.




                                                29
Table 5. Potential Bona Fide Needs Rule Violation Related to DETS WFO Project

    MIPR No.                  MIPR               Funds             Invoice        Invoice        Invoice
                             Amount            Expiration            No.           Date          Amount
                                                  Date
F4ATA78231G004             $210,300.00         9/30/2008
                                                   ”             20091262         9/2008        $13,742.97
                                                   ”             20092209         11/2008        18,919.25
                                                   ”             20093097         12/2008         5,587.90
                                                   ”             20093934          1/2009        36,024.04
                                                   ”             20094923          2/2009        32,956.39
                                                   ”             20095807          3/2009         6,277.95
                                                   ”             20096731          4/2009           419.83
                                                   ”             20097677          5/2009        19,837.73
                                                   ”             20098619          6/2009        12,919.34
                                                   ”             20099780          7/2009        16,135.41
                                                   ”             20100792          8/2009        45,750.08
                                                   ”             20101973          9/2009         1,718.98
                                                   ”             20103198          9/2009            10.13
Total                                                                                          $210,300.00

Raft Scoring WFO Project
On September 2, 2008, the Air Force 576 FLTS/TMO, Air Force Space Command,
Vandenberg Air Force Base, California, issued MIPR F4DEB18246G001 to provide
$100,000 to Lawrence Livermore. The funds were for a WFO project for Lawrence
Livermore to perform raft scoring1 downrange support to the Air Force and NNSA
related to a test launch of an Intercontinental Ballistic Missile in support of the Joint
Testing and Assessment of the Nuclear Weapons Stockpile Program. The NNSA
contractor performed this WFO project under DOE Proposal Number L11925. Lawrence
Livermore accepted MIPR F4DEB18246G001 on September 5, 2008. MIPR
F4DEB18246G001 cited 5783400 funds, which are Air Force FY 2008 O&M funds.
These funds are 1-year funds and were available for new obligations until September 30,
2008. According to the statement of work, the NNSA contractor was to complete all
work under any funding no later than September 30, 2008. Section 2410a, title 10,
United States Code, permits the performance of severable services to begin in one fiscal
year and end in the next provided the period of performance does not exceed one year.
DoD Financial Management Regulation volume 11A, chapter 18 also states that “the
performance of severable services must begin during funds period of availability and may
not exceed one year.” A potential bona fide needs rule violation occurred because the
Air Force did not demonstrate that performance began in FY 2008. According to
contractor invoice records, all work performed and all costs expended under MIPR


1
 Raft scoring refers to rafts with on-board tracking instruments used to score the accuracy of the re-entry
vehicle when it strikes the water.


                                                     30
F4DEB18246G001 occurred in FY 2009. Table 6 identifies MIPR and invoice
information. The third column identifies that the funds expired on September 30, 2008,
and were no longer available for new obligations. The four dates in column five that are
shaded identify situations where the contractor performed work and incurred costs after
September 30, 2008.

 Table 6. Potential Bona Fide Needs Rule Problems Related to Raft Scoring WFO
                                    Project

    MIPR No.             MIPR            Funds          Invoice No.    Invoice     Invoice
                        Amount         Expiration                       Date       Amount
                                          Date
F4DEB18246G001        $100,000.00      9/30/2008
                                           ”           2009503611       2/2009    $43,244.97
                                           ”           2009504333       3/2009      1,877.15
                                           ”           2009504947       4/2009     51,973.55
                                           ”           2009506063       5/2009       947.84
Total                                                                             $98,043.51

We determined that a potential Antideficiency Act violation involving the augmentation
of funds also exists because NNSA supplemented its appropriations by using DoD funds
without specific statutory authority. According to 31 U.S.C., Section 1341a (1)(A):

               An officer or employee of the United States Government or of the
               District of Columbia government may not make or authorize an
               expenditure or obligation exceeding an amount available in an
               appropriation or fund for the expenditure or obligation . . .

In this situation, the Air Force paid for work that, according to an Air Force official, the
Air Force had not paid for in the past. After reviewing a February 16, 2001,
memorandum of understanding regarding the joint testing and assessment of the nuclear
weapons stockpile between NNSA and the Air Force, we were unable to identify who
was responsible for paying for the work. While it was not clear who was responsible for
paying for the work, it appears that the Air Force augmented NNSA funds.

Longwave Infrared Hyperspectral Imaging Spectrometer Module
WFO Project
On September 15, 2008, Wright-Patterson Air Force Base 659 Aeronautical Systems
Squadron, Ohio, issued MIPR F4FDAG8179G002 to Lawrence Livermore to provide
$150,000 of incremental funds to Lawrence Livermore. The funds were for a WFO
project for the contractor at Lawrence Livermore to complete development of a longwave
infrared hyperspectral imaging spectrometer channel for the Spectral Infrared Remote




                                             31
Imaging Transition Testbed (SPIRITT) program2 that had been started earlier. The
NNSA contractor performed this WFO project under DOE Proposal Number L-12162.
Lawrence Livermore accepted MIPR F4FDAG8179G002 on September 16, 2008.
According to the statement of work, all work was to be completed and all deliverables
received 6 months from receipt of the funding, which occurred on September 16, 2008.
Accordingly, the period of performance should have ended on March 15, 2009. The
MIPR cited 5783600 funds, which were Air Force FY 2008 RDT&E funds. These funds
are 2-year funds and were available for new obligations until September 30, 2009.
According to the June 1, 2009 GAO Decision:

                 A severable service is a recurring service or one that is measured in
                 terms of hours or level of effort rather than work objectives. B-277165,
                 Jan. 10, 2000, at 5; 60 Comp. Gen. 219, 221-22 (1981). Whether a
                 contract is for severable or nonseverable services affects how the
                 agency may fund the contract; severable services contracts may be
                 incrementally funded, while nonseverable services contracts must be
                 fully funded at the time of the award of the contract. 73 Comp. Gen.
                 77; 71 Comp. Gen 428 (1992)

After reviewing how the Air Force used the funds, we determined that a potential bona
fide needs rule violation would exist regardless of whether the Air Force determined that
the services were severable or nonseverable. For example, if Air Force officials
determined that the services were severable, they should not have used the funds after
September 30, 2009, when the funds expired and were no longer available for new
obligations. However, they did use some of the funds after September 30, 2009. On the
other hand, if Air Force officials determined that the services were nonseverable, they
should have funded the entire WFO project up front, which they did not. Air Force
Instruction 65-601, “Budget Guidance and Procedures,” March 3, 2005, states:

                 Limit reapplying of funds in the second year to cost growth within
                 scope or to requirements which are a bona fide need of the
                 appropriation year as defined by DFAS-DE Interim Guidance on
                 Accounting for Obligations. Commands should identify funds above
                 programmed requirements to be obligated in the first year to
                 SAF/FMBIZ [Financial Management and Comptroller, Air Force
                 Investments and Integration Division] and SAF/AQXR [Acquisition
                 Program Integration Division], so the Air Force can reapply funds to
                 other priority programs.

We also determined that Wright Patterson Air Force Base officials did not follow
Air Force Instruction 65-601 since none of the costs related to MIPR F4FDAG8179G002
occurred during the first year. Table 7 identifies MIPR and invoice information. The
third column identifies that the funds expired on September 30, 2009, and were no longer
available for new obligations.



2
  The purpose of the SPIRITT program is to develop a day/night, long-range reconnaissance imaging
testbed composed of a hyperspectral sensor system with integrated high-resolution imaging, demonstrate it
on-board a representative aircraft, and transition it to an operational prototype.


                                                   32
The two dates that are shaded in column five identify situations where the contractor
performed work and incurred costs after September 30, 2009.

        Table 7. Potential Use of Expired Funds Related to Longwave Infrared
             Hyperspectral Imaging Spectrometer Module WFO Project

    MIPR No.             MIPR           Funds        Invoice No.    Invoice     Invoice
                        Amount        Expiration                     Date       Amount
                                         Date
F4FDAG8179G002        $150,000.00     9/30/2009
                                          ”         2009503627      2/2009     $14,890.22
                                          ”         2009504348      3/2009     104,030.71
                                          ”         2009506619      5/2009      14,887.78
                                          ”         2010500813     10/2009         852.09
                                          ”         2010501541     11/2009       2,418.58
Total                                     ”                                   $137,079.38

On September 16, 2008, Wright-Patterson Air Force Base 659 AESS/SP issued another
MIPR, F4FDAG8179G001, to Lawrence Livermore that was also for work related to the
longwave infrared hyperspectral imaging spectrometer channel for SPIRITT WFO
project. The MIPR value was $221,823.30. Lawrence Livermore accepted MIPR
F4FDAG8179G001 on September 16, 2008. While these funds were also Air Force
RDT&E funds, they were FY 2007 RDT&E funds and due to expire in 14 days on
September 30, 2008.

After reviewing how the Air Force used the funds and the June 1, 2009, GAO Decision,
we determined that a potential bona fide needs rule violation occurred. If Air Force
officials determined that the services were severable, they should not have used the funds
for new obligations after the funds expired on September 30, 2008. However, they used
all of the funds after September 30, 2008. On the other hand, if Air Force officials
determined that the services were nonseverable, they should have funded the entire WFO
project up front, which they did not. Again, we also determined that the Air Force did
not follow Air Force Instruction 65-601 since none of the funds were expended either in
the first year or second year but rather in the third year. Table 8 identifies MIPR and
invoice information. The third column identifies that the funds expired on September 30,
2008, and were no longer available for new obligations. The five dates that are shaded in
column five identify situations where the contractor performed work and incurred costs
after September 30, 2008.




                                           33
 Table 8. Potential Bona Fide Needs Rule Problems Related to Longwave Infrared
           Hyperspectral Imaging Spectrometer Module WFO Project

    MIPR No.            MIPR          Funds       Invoice No.     Invoice       Invoice
                       Amount       Expiration                     Date         Amount
                                       Date
F4FDAG8179G001       $221,823.30    9/30/2008
                                        ”         2009501002      10/2008       $73,224.70
                                        ”         2009501637      11/2008        26,459.83
                                        ”         2009502241      12/2008        47,865.36
                                        ”         2009502871       1/2009        24,679.59
                                        ”         2009503626       2/2009        49,593.82
Total                                                                          $221,823.30

Smart Threads Integrated Radiological Sensors WFO Project
On September 12, 2008, DTRA, Fort Belvoir, Virginia, issued Interagency Cost
Reimbursement Order (IACRO) 08-4518I, valued at $745,684 to Y-12. The purpose was
to provide incremental funding for a $20 million WFO project to provide the Smart
Threads Integrated Radiological Sensors joint capability technology demonstration with
all technical support necessary for completion of the man-portable detection systems-land
operational demonstration exercise. The DOE Proposal Number was 2276-Z241-08.
Y-12 accepted IACRO 08-4518I on September 18, 2008. The scope of work included
five specific tasks, to be completed from September 15, 2008, until November 30, 2009.
IACRO 08-4518I cited 9780400 funds, which were FY 2008 Defense-wide RDT&E
funds. These funds are 2-year funds and were available for new obligations until
September 30, 2009.

We determined that a potential bona fide needs rule violation would occur regardless of
whether DTRA officials determined that the services were severable or nonseverable. If
DTRA officials determined that the services were severable, they should not have used
the funds for new obligations after the funds expired on September 30, 2009. However,
DTRA officials used $114,879.26 of the funds after September 30, 2009. On the other
hand, if DTRA officials determined that the services were nonseverable, they should have
funded the entire WFO project up front, which it did not. Table 9 identifies MIPR and
invoice information. The third column identifies that the funds expired on September 30,
2009, and were no longer available for new obligations. The date that is shaded in
column five identifies a situation where the contractor performed work and incurred costs
after September 30, 2009.




                                           34
   Table 9. Potential Use of Expired Funds Related to Smart Threads Integrated
                        Radiological Sensors WFO Project

   MIPR No.           MIPR           Funds       Invoice     Invoice       Invoice
                     Amount       Expiration       No.        Date         Amount
                                      Date
IACRO 08-4518I     $745,684.00    9/30/2009
                                       ”        90074134      9/2008       $24,735.95
                                       ”        90074276     10/2008        72,408.86
                                       ”        90074523     11/2008        54,984.61
                                       ”        90074726     12/2008        54,130.20
                                       ”        90074899      1/2009       112,775.99
                                       ”        90075152      2/2009       104,416.66
                                       ”        90075562     3/2009          7,089.27
                                       ”        90075742     4/2009         40,894.97
                                       ”        90075881      5/2009           839.39
                                       ”        90076164     6/2009          9,725.31
                                       ”        90076348     7/2009          6,224.65
                                       ”        90076552     8/2009          4,867.08
                                       ”        90076981     10/2009       114,879.26
Total                                                                     $607,972.20

Test and Evaluation Support WFO Project
On May 21, 2007, DTRA issued IACRO 07-4248I, valued at $25,000 to Y-12. Y-12
accepted IACRO 07-4248I on June 18, 2007. IACRO 07-4248I provided incremental
funding for a test and evaluation support WFO project with an overall budget of
$2,552,590 performed under DOE Proposal Number 2276-Z081-07. IACRO 07-4248I
cited 9770400 funds, which were FY 2007 Defense-wide RDT&E funds. These funds
were 2-year funds and available for new obligations until September 30, 2008.

After reviewing how DTRA used the funds and the June 1, 2009, GAO Decision, we
determined that a potential bona fide needs rule violation would exist regardless of
whether DTRA determined that the services were severable or nonseverable. For
example, if DTRA officials determined that the services were severable, they should not
have used the funds for new obligations after the funds expired on September 30, 2008.
However, DTRA used some of the funds after September 30, 2008. On the other hand, if
DTRA officials determined that the services were nonseverable, they should have funded
the entire WFO project up front, which they did not. The undefined period of
performance contributed to the potential bona fide needs rule violation. The statement of
work identified the period of performance as “five years” with no specific beginning or
ending. The DoD funding document, IACRO 07-4248I, identified a specific period of
performance that began on February 1, 2006, which was before the FY 2007 RDT&E
funds were available for use. Table 10 identifies MIPR and invoice information. The
third column identifies that the funds expired on September 30, 2008, and were no longer


                                           35
available for new obligations. The four dates that are shaded in column five identify
situations where the contractor performed work and incurred costs after September 30,
2008.

 Table 10. Potential Use of Expired Funds Related to Test and Evaluation Support
                                   WFO Project

   MIPR No.           MIPR         Funds         Invoice      Invoice     Invoice
                     Amount      Expiration        No.         Date       Amount
                                    Date
IACRO 07-4248I      $25,000.00   9/30/2008
                                     ”          90071570      7/2007        $658.05
                                     ”          90071773       8/2007        164.50
                                     ”          90072061      10/2007        345.97
                                     ”          90072299      11/2007      1,902.77
                                     ”          90072325      12/2007        172.98
                                     ”          90072548      1/2008       1,383.82
                                     ”          90073678       7/2008        843.42
                                     ”          90073885      8/2008      15,227.62
                                     ”          90073916      8/2008       (497.45)
                                     ”          90074131       9/2008        172.98
                                     ”          90074273      10/2008        183.66
                                     ”          90074519      11/2008          91.83
                                     ”          90074723      12/2008        367.32
                                     ”          90074897       1/2009      3,718.56
                                     ”          90076161      6/2009          (7.24)
Total                                                                    $24,728.79

On October 17, 2007, DTRA issued another funding document, IACRO 07-4312I, valued
at $69,116.00, to Y-12 for the Test and Evaluation Support WFO project performed
under DOE Proposal Number 2276-Z081-07. Y-12 accepted IACRO 07-4312I on
October 30, 2007. IACRO 07-4312I also cited 9770400 funds, which were FY 2007
Defense-wide RDT&E funds. These funds are 2-year funds, and were available for
incurring new obligations until September 30, 2008.

We determined that a potential bona fide needs rule violation existed because DTRA
officials used some of the funds for new obligations after September 30, 2008. Table 11
identifies MIPR and invoice information. The third column identifies that the funds
expired on September 30, 2008, and were no longer available for new obligations. The
two dates that are shaded in column five identify situations where the contractor
performed work and incurred costs after September 30, 2008.




                                           36
 Table 11. Potential Use of Expired Funds Related to Test and Evaluation Support
                                   WFO Project

   MIPR No.            MIPR             Funds           Invoice       Invoice       Invoice
                      Amount          Expiration          No.          Date         Amount
                                         Date
IACRO 07-4312I       $69,116.00       9/30/2008
                                          ”            90072172       11/2007          $346.01
                                          ”            90072326       12/2007         7,709.79
                                          ”            90072549       1/2008          3,177.63
                                          ”            90072676       2/2008          8,173.25
                                          ”            90072921       3/2008          4,497.48
                                          ”            90072943        3/2008           346.01
                                          ”            90072983        3/2008         (346.01)
                                          ”            90073132       4/2008          8,043.57
                                          ”            90073325       5/2008          8,086.77
                                          ”            90073431       6/2008         22,467.35
                                          ”            90073680        7/2008           954.56
                                          ”            90073886       8/2008          2,971.04
                                          ”            90074274       10/2008         2,098.34
                                          ”            90074520       11/2008           154.94
                                          ”            90076162        6/2009           (3.86)
                                          ”            90076690        9/2009         (79.37)
Total                                                                              $68,597.50

Contributing Factors to Funding Problems
The DoD Financial Management Regulation does not clearly address how DoD
requesting activities should use multiple-year appropriations to fund severable and
nonseverable contracts, either fully or incrementally. The Financial Management
Regulation also does not address whether the statutory requirements of 10 U.S.C 2410a
apply to contracts funded by multiple-year appropriations or whether it is only applicable
to annual appropriations. The FAR and DFARS also do not address the issues.
According to GAO Decision B317139, June 1, 2009:
               Whether a contract is severable or nonseverable services affects how
               the agency may fund the contract; severable services contracts may be
               incrementally funded, while nonseverable services contracts must be
               fully funded at the time of the award of the contract. 73 Comp.Gen. 77;
               71 Comp. Gen. 428 (1992).

According to GAO Decision B-317636, April 21, 2009, an agency using multiple-year or
no-year appropriations does not need to refer to section 2410a because these types of
appropriations already extend 1-year beyond the first year.



                                                 37
In the absence of detailed DoD guidance, DoD requesting activities provided incremental
funding to WFO projects and then used the funds after they expired and were no longer
available for new obligations.

Conclusion
Funding problems such as those that we identified in this report will continue to occur
until the FAR, DFARS, and the DoD Financial Management Regulation include clear
guidance on how to fund contracts using RDT&E funds. Specifically, the guidance needs
to address procedures for incrementally funding and fully funding severable and
nonseverable contracts.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics initiate changes to the Federal Acquisition Regulation
and Defense Federal Acquisition Regulation Supplement or both as appropriate to
include guidance on the financing of all types of contracts with multiple-year
appropriations. This should be coordinated with the DoD Comptroller’s changes to
the Defense Financial Management Regulation.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Director, Defense Procurement and Acquisition Policy, provided comments on
behalf of the Under Secretary of Defense for Acquisition, Technology, and Logistics.
The Director agreed with the recommendation. The Director stated he will review the
FAR and DFARS in coordination with the DoD Comptroller to determine whether
changes are necessary.

Our Response
The Director of Defense Procurement and Acquisition Policy’s comments are responsive
and meet the intent of our recommendation.

B.2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

       a. Instruct the Services and the Defense Threat Reduction Agency to initiate
preliminary reviews of the potential Antideficiency Act violations we identified and
to adjudicate each potential Antideficiency Act violation.

       b. Perform additional reviews of DoD funding documents related to Work
for Others projects to determine the magnitude of the potential funding problems
we identified and take appropriate actions to prevent these issues from occurring in
the future.



                                           38
       c. Update guidance in the DoD Financial Management Regulation on how to
fund severable and nonseverable contracts when using multiple-year
appropriations, in particular, those using research, development, test, and
evaluation funds.

       d. Require financial personnel to receive training that focuses on the use of
research, development, test, and evaluation funds. The training should emphasize
the bona fide needs rule and potential Antideficiency Act violations.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Deputy Chief Financial Officer provided comments on behalf of the Under Secretary
of Defense (Comptroller)/Chief Financial Officer. Overall, the Deputy agreed with
Recommendation B.2. However, the Deputy partially agreed with Recommendation
B.2.d, stating that rather than proposing training solely on the use of RDT&E funds, the
Under Secretary of Defense (Comptroller)/Chief Financial Officer will work on updating
the widely available training that already exists to highlight the planned changes of the
DoD Financial Management Regulation as described in Recommendation B.2.c.

Our Response
The Deputy Chief Financial Officer’s comments are responsive and concur with the
intent of our recommendation.

Defense Threat Reduction Agency Comments
Although not required to comment, the Director of DTRA agreed with Recommendations
B.2.a and B.2.b. Regarding Recommendation B.2.a., the Director stated that DTRA has
already appointed a reviewing official for the effort and will provide the Under Secretary
of Defense (Comptroller)/Chief Financial Officer with a preliminary review of potential
funding violations. Regarding B.2.b., the Director stated that DTRA will conduct a
review of funding documents related to WFO projects, to ensure compliance with the
DoD Financial Management Regulation.

Our Response
The Director of DTRA’s comments generally support the intent of our recommendation.




                                           39
Appendix A. Scope and Methodology
We conducted this performance audit from November 2008 through December 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We performed this audit as required by Section 804 of Public Law 110–417, “Duncan
Hunter National Defense Authorization Act for Fiscal Year 2009” (the Act). The Act
requires the Inspector Generals of DoD and DOE to conduct a joint review of interagency
transactions between DoD and DOE. Our review focused on projects that NNSA sites
performed for DoD under the DOE WFO program. The DOE Inspector General stated in
his report that “with annual expenditures exceeding $1 billion, the Department of
Defense (DoD) is one of the Department’s largest WFO customers.”

The DOE OIG provided us with a list of 218 WFO projects that had new or continuing
requirements in the fourth quarter of 2008 as our universe. The WFO projects were
valued at $394.4 million and related to six of the eight NNSA sites. We non-statistically
selected 14 WFO projects that three of the six NNSA sites performed for DoD to review.
The three NNSA sites were the Sandia National Laboratory, Albuquerque, New Mexico;
the Lawrence Livermore National Laboratory, Livermore, California; and the Y-12
National Security Complex, Oak Ridge, Tennessee. We also selected 23 DoD funding
documents related to the 14 WFO projects for review. The 23 DoD funding documents
were valued at $9.7 million. The documents that the DOE OIG provided to us lacked
detail, which made our sample selection process difficult. As part of our audit, we
reviewed:

      DoD compliance with Section 801,
      procedures for recording procurement data into the FPDS-NG database,
      D&Fs that DoD prepared to support its use of DOE laboratories,
      NNSA contractor cost information,
      DoD reviews of NNSA contractor cost information,
      DoD IGCEs,
      DoD funding documents,
      procedures for monitoring DOE contractor performance, and
      procedures for reviewing contractor invoices.

In March 2009, we requested access to data from DOE in order to perform our review.
We did not obtain the data until November and December 2009. The additional time it
took us to obtain the data increased the time it took to perform the audit. We also
requested additional data from a Navy requesting activity in December 2008. However,
we did not obtain the information until April 14, 2009.



                                           40
Use of Computer-Related Data
Using the FPDS-NG database, we were unable to identify a universe of assisted
acquisition purchases that DOE made on behalf of DoD in FY 2008. As an alternative,
the DOE OIG provided us with a list of 218 WFO projects that 6 DOE laboratories
performed for DoD requesting activities that had new or continuing requirements in the
fourth quarter of 2008 as our universe. We did not perform detailed testing of the
information because we used the information only to select our sample.




                                           41
Appendix B. Prior Coverage
During the last 5 years, GAO, the DoD Inspector General (IG), the U.S. Department of
the Army, the DOE IG and the VA IG issued 26 reports discussing interagency
acquisitions. Unrestricted GAO reports can be accessed at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army reports can be accessed at https://www.aaa.army.mil. Unrestricted
DOE IG reports can be accessed at http://www.ig.energy.gov/reports.htm. Unrestricted
VA OIG reports can be accessed at http://www.va.gov

GAO
GAO Report No. GAO-08-1063, “DoD Financial Management Improvements Are
Needed In Antideficiency Act Controls and Investigations,” September 2008

GAO Report No. GAO-07-310, “High-Risk Series: An Update,” January 2007

GAO Report No. GAO-06-996, “Interagency Contracting Improved Guidance, Planning,
and Oversight Would Enable The Department of Homeland Security To Address Risks,”
September 2006

GAO Report No. GAO-05-456, “Interagency Contracting Franchise Funds Provide
Convenience, but Value to DoD is Not Demonstrated,” July 2005

GAO Report No. GAO-05-201, “Interagency Contracting Problems With DoD’s and
Interior’s Orders to Support Military Operations,” April 2005

GAO Report No. GAO-05-274, “Contract Management Opportunities to Improve
Surveillance on Department of Defense Service Contracts,” March 2005

DoD IG
DoD IG Report No. D-2009-064, “FY 2007 DoD Purchases Made Through the National
Institutes of Health,” March 24, 2009

DoD IG Report No. D-2009-043, “FY 2007 DoD Purchases Made Through the U.S.
Department of Veterans Affairs,” January 21, 2009

DoD IG Report No. D-2008-122, “Follow-up on DoD Purchases Made Through the
Department of the Interior,” August 18, 2008

DoD IG Report No. D-2008-082, “Summary Report on Potential Antideficiency Act
Violations Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004
Through FY 2007),” April 25, 2008

DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made Through
the Department of the Interior,” March 19, 2008


                                         42
DoD IG Report No. D-2008-050, “Report on FY 2006 DoD Purchases Made Through the
Department of the Treasury,” February 11, 2008

DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the U.S.
Department of Veterans Affairs,” December 20, 2007

DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the National
Institutes of Health,” November 15, 2007

DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
Department of the Interior,” January 16, 2007

DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on DoD
Purchases Made Through Non-DoD Agencies,” January 2, 2007

DoD IG Report No. D-2007-032, “Report on FY 2005 DoD Purchases Made Through the
Department of the Treasury,” December 8, 2006

DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the National
Aeronautics and Space Administration,” November 13, 2006

DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the General
Services Administration,” October 30, 2006

DoD IG Report No. D-2006-029, “Report of Potential Antideficiency Act Violations
Identified During the Audit of the Acquisition of the Pacific Mobile Emergency Radio
System,” November 23, 2005

DoD IG Report No. D-2005-096, “DoD Purchases Through the General Services
Administration,” July 29, 2005

Army
Army Report No. A-2007-0096-FFH, “Proper Use of Non-DoD Contracts, U.S. Army
Medical Command,” March 22, 2007

Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
Management,” May 25, 2004


DOE IG
DOE IG Report No. DOE/IG-0829, “Work for Others Performed by the Department of
Energy for the Department of Defense,” October 2009




                                          43
VA IG
VA Report No. 06-03540-24, “Audit of VA Purchases Made on Behalf of the
Department of Defense,” November 19, 2007

VA Report No. 04-03178-139, “Audit of VA Acquisitions for Other Government
Agencies,” May 5, 2006




                                        44
Appendix C. Work for Others Projects We
Reviewed
     DOE Proposal No.           Funding              DoD                                           Purpose
     DoD Funding Doc.          Document       Requesting Activity
                                Amount
                                      Sandia National Laboratory
1) DOE Proposal 041031209-3                    Naval Surface Warfare Center,        Technical services required to update
  1) N6133108IP00002             $90,000.00    Panama City Division,                and revise Sandia National Laboratory-
                                               Panama City, Florida                 Intrusion Detection Report produced in
                                                                                    2006

2) DOE Proposal 059080812-0                    HQ Air Force Civil Engineering       Dynamic Explosive Training Site
  2) F4ATA78231G004              210,300.00    Support Agency,                      (DETS) training course
                                               Tyndall AFB, Florida
3) DOE Proposal 063080731-0                    Navy Engineering Logistics Office,   Services related to the development of
  3) N4175608GO18508-0           734,972.00    Arlington, Virginia                  human, social, and cultural behavior
                                                                                    modeling toolkit

4) DOE Proposal 021060510                      Department of the Navy               Hardware and engineering services in
  4) N0003008MP80033            2,144,000.00   Strategic Systems Programs,          support of the Navy Re-entry Program
                                               Arlington, Virginia
                                      Y-12 National Security Complex
5) DOE Proposal 2276-Z151-08                   Defense Threat Reduction Agency,     Radiological Field Training Exercise
  5) IACRO 08-4409I             $102,000.00    Fort Belvoir, Virginia
6) DOE Proposal 2276-Z042-06                   Defense Threat Reduction Agency,     Development and test of “Eagle Eyes,”
  6) IACRO 08-4428I               630,000.00   Fort Belvoir, Virginia               a nuclear technology to characterize
  7) IACRO 06-40991               239,000.00                                        exterior areas for traces of nuclear
  8) IACRO 07-4243I             1,161,000.00                                        material
7) DOE Proposal 2276-Z081-07                   Defense Threat Reduction Agency,     Test and development of radiation
  9) IACRO 07-4313I               93,258.00    Fort Belvoir, Virginia               detection equipment
  10) IACRO 07-4312I              69,116.00
  11) IACRO 08-4408I             800,000.00
  12) IACRO 07-4248I              25,000.00
8) DOE Proposal 2276-Z241-08                   Defense Threat Reduction Agency,     Smart Threads Integrated Radiological
  13) IACRO 08-4518I             745,684.00    Fort Belvoir, Virginia               Sensor program that detects, intercepts,
                                                                                    and defeats threats
                                Lawrence Livermore National Laboratory
9) DOE Proposal L-11925                        576 Flight Test Squadron Air         Services related to “Raft Scoring” in
  14) F4DEB18246G001            $100,000.00    Force Space Command,                 support of the Air Force 576th Flight
                                               Vandenberg AFB, California           Test Squadron Force Development
                                                                                    Evaluation mission
10) DOE Proposal L-11374                       Office of Naval Research,            Services related to Office of Naval
 15) N0001408IP20005             925,000.00    Attn: Code 822,                      Research Railgun Program
 16) N0001407IP20080             475,000.00    Arlington, Virginia
11) DOE Proposal L-11889                       Office of Naval Research,            Services to support the ONR program:
 17) N0001408IP20100             111,900.00    Attn: Code 822,                      “The Impact of Alternative Fuels On
                                               Arlington, Virginia                  Combustion Kinetics”
12) DOE Proposal L-11588                       Office of Naval Research,            Major upgrade of Lagrange structural
 18) N0001408IP20044             173,782.00    Attn: Code 822,                      solver module in the Dynamic System
 19) N0001407IP20103              75,000.00    Arlington, Virginia                  Mechanics Advanced Simulation family
                                                                                    of codes
13) DOE Proposal L-12162                       659 Aeronautical Systems             Development and delivery of longwave
 20) F4FDAG8179G001              221,823.30    Squadron, Wright Patterson AFB,      hyperspectral channel for “SPIRITT”
 21) F4FDAG8179G002              150,000.00    Ohio
14) DOE Proposal L-12098                       U.S. Army Space and Missile          Demonstration of Tactical Integrated
 22) MIPR7LO89TGAV1-00           400,000.00    Defense Command/Army Forces          Power System (TIPS) to integrate it with
 23) MIPR8JO89CPS25-00            40,000.00    Strategic Command,                   a high power directed energy device
                                               Huntsville, Alabama




                                                       45
   Appendix D. Inadequate DoD Review of
   Contractor Cost Estimates
    NNSA Proposal No. and                           Proposal            DoD Requesting                              Issues
   Description of WFO Project                       Amount                 Activity
                                                     Sandia National Laboratory
1) DOE Proposal 041031209-3                                         Naval Surface Warfare Center,   Navy proceeded with WFO project
Technical services required to update and revise                    Panama City Division,           without first obtaining detailed
                                                      $90,000.00
Sandia National Laboratories Intrusion                              Panama City, Florida            contractor cost information.
Detection Report produced in 2006
2) DOE Proposal 063080731-0                                         Navy Engineering Logistics      Navy did not have detailed contractor
Services related to the development of human,                       Office,                         cost information. Navy asked for
                                                    1,814,098.00
social, and cultural behavior modeling toolkit                      Arlington, Virginia             additional detail but
                                                                                                    received only limited information.
3) DOE Proposal 021060510                                           Department of the Navy          Navy proceeded with WFO project
Hardware and engineering services in support of     2,144,000.00    Strategic Systems Programs,     without first obtaining detailed
the Navy Re-entry Program                                           Arlington, Virginia             contractor cost information.
                                                   Y-12 National Security Complex
4) DOE Proposal 2276-Z151-08                                    Defense Threat Reduction            DTRA proceeded with this WFO
Radiological Field Training Exercise                $102,000.00 Agency, Fort Belvoir, Virginia      project without first obtaining
                                                                                                    detailed cost information.
5) DOE Proposal 2276-Z081-07                                       Defense Threat Reduction         Contractor cost information was not
Radiation Detection, Testing, and Evaluation                       Agency, Fort Belvoir, Virginia   detailed; however, DTRA performed
                                                    2,552,590.00
                                                                                                    a detailed review of the cost
                                                                                                    information it received.
                                                   Lawrence Livermore Laboratory
6) DOE Proposal L-11925                                            576 Flight Test Squadron Air     Air Force proceeded with WFO
Services related to “Raft Scoring” in support                      Force Space Command              project without first obtaining
                                                    $100,000.00
of the Air Force 576th Flight Test Squadron                        Vandenberg AFB, California       detailed contractor cost information.
FDE mission
7) DOE Proposal L-11374                                          Office of Naval Research,          Office of Naval Research proceeded
Services related to Office of Naval Research                     Attn: Code 822,                    with WFO project without first
                                                    2,465,976.00
Railgun Program                                                  Arlington, Virginia                obtaining detailed contractor cost
                                                                                                    information.
8) DOE Proposal L-11889                                         Office of Naval Research,           Office of Naval Research proceeded
Services to support the ONR program: “The                       Attn: Code 822,                     with WFO project without first
                                                     311,900.00
Impact of Alternative Fuels On Combustion                       Arlington, Virginia                 obtaining detailed contractor cost
Kinetics”                                                                                           information.
9) DOE Proposal L-11588                                            Office of Naval Research,        Office of Naval Research proceeded
Major upgrade of Lagrange structural solver                        Attn: Code 822,                  with WFO project without first
                                                     250,000.00
module in the Dynamic System Mechanics                             Arlington, Virginia              obtaining detailed contractor cost
Advanced Simulation family of codes                                                                 information.
10) DOE Proposal L-12162                                           659 Aeronautical Systems         Air Force did not have detailed
Development and delivery of longwave                               Squadron, Wright Patterson       contractor cost information. Air
hyperspectral channel for “SPIRITT”                                AFB, Ohio                        Force stated that proposal, technical
                                                     399,905.00                                     evaluation, price reasonableness
                                                                                                    documentation would be the
                                                                                                    responsibility of the DOE contracting
                                                                                                    activity.
11) DOE Proposal L-12098                                         U.S. Army Space and Missile        Army proceeded with WFO project
Demonstration of Tactical Integrated Power                       Defense Command/Army               without first obtaining detailed
                                                    1,000,000.00
System (TIPS) to integrate it with a high                        Forces Strategic Command,          contractor cost information.
power directed energy device                                     Huntsville, Alabama




                                                                   46
Appendix E. MIPRs Lacked Specificity

    DOE Servicing             DoD Requesting Activity                                 Issues
      Activity
                                  Sandia National Laboratory
DOE Proposal 059080812-0    Headquarters, Air Force Civil           1) Funding document lacks specificity
 1) F4ATA78231G004          Engineering Support Agency,             1) No period of performance
                            Tyndall Air Force Base, Florida
DOE Proposal 063080731-0    Navy Engineering Logistics Office,      2) Funding document lacks specificity
 2) N4175608GO18508-0       Arlington, Virginia                     2) No period of performance
DOE Proposal 021060510      Department of the Navy Strategic        3) Funding document lacks specificity
 3) N0003008MP80033         Systems Programs, Arlington, Virginia   3) No period of performance
DOE Proposal 041031209-3    Naval Surface Warfare Center Panama     4) No period of performance
 4) N6133108IP00002         City Division, Panama City, Florida
                               Y-12 National Security Complex
DOE Proposal 2276-Z042-06   Defense Threat Reduction Agency,        5)    Funding document lacks specificity
 5) IACRO 08-4428I          Fort Belvoir, Virginia                  6)    Funding document lacks specificity
 6) IACRO 06-4099I                                                  6)    No period of performance
 7) IACRO 07-4243I                                                  7)    Funding document lacks specificity
DOE Proposal 2276-Z081-07   Defense Threat Reduction Agency,        8) No period of performance
 8) IACRO 07-4313I          Fort Belvoir, Virginia                  9) No period of performance
 9) IACRO 07-4312I
                              Lawrence Livermore Laboratory
DOE Proposal L-11374        Office of Naval Research,               10)    Funding document lacks specificity
 10) N0001408IP20005        Attn: Code 822,                         10)    No period of performance
 11) N0001407IP20080        Arlington, Virginia                     11)    Funding document lacks specificity
                                                                    11)    No period of performance
DOE Proposal L-11889        Office of Naval Research,               12) Funding document lacks specificity
 12) N0001408IP20100        Attn: Code 822,                         12) No period of performance
                            Arlington, Virginia
DOE Proposal L-11588        Office of Naval Research,               13)    Funding document lacks specificity
 13) N0001408IP20044        Attn: Code 822,                         13)    No period of performance
 14) N0001407IP20103        Arlington, Virginia                     14)    Funding document lacks specificity
                                                                    14)    No period of performance
DOE Proposal L-12098        U.S. Army Space and Missile Defense     15) No period of performance
 15) MIPR7LO89TGAV1-00      Command/Army Forces Strategic           16) No period of performance
 16) MIPR8JO89CPS25-00      Command, Huntsville, Alabama
DOE Proposal L-12162        659 Aeronautical Systems Squadron,      17) No period of performance
 17) F4FDAG8179G002         Wright Patterson Air Force Base, Ohio   18) No period of performance
 18) F4FDAG8179G001
DOE Proposal L-11925        576 Flight Test Squadron Air Force      19) No period of performance
 19) F4DEB18246G001         Space Command,
                            Vandenberg Air Force Base, California




                                                 47
      Appendix F. Potential Funding Problems
                                  Funding             Funds
          DoD Funding                                                                 Invoice
                                 Document           Expiration       Invoice No.                  Invoice Amount
          Document No.                                                                 Date
                                  Amount               Date
                                            Sandia National Laboratory
1) F4ATA78231G004                  $210,300.00       9/30/2008        20092209        11/2008           $18,919.25
2)                                                       ”            20093097        12/2008             5,587.90
3)                                                       ”            20093934          1/2009           36,024.04
4)                                                       ”            20094923          2/2009           32,956.39
5)                                                       ”            20095807          3/2009            6,277.95
6)                                                       ”            20096731          4/2009              419.83
7)                                                       ”            20097677          5/2009           19,837.73
8)                                                       ”            20098619          6/2009           12,919.34
9)                                                       ”            20099780          7/2009           16,135.41
10)                                                      ”            20100792          8/2009           45,750.08
11)                                                      ”            20101973          9/2009            1,718.98
12)                                                      ”            20103198          9/2009                  10.13
                                                                              
13) N4175608GO18508-0                  734,972       9/30/2009          N/A            N/A                       N/A
                                          Y-12 National Security Complex
14) IACRO 08-4518I                 $745,684.00       9/30/2009        90076981        10/2009         $114,879.26
15) IACRO 07-4248I                   25,000.00       9/30/2008        90074273        10/2008               183.66
16)                                                      ”            90074519        11/2008                   91.83
17)                                                      ”            90074723        12/2008               367.32
18)                                                      ”            90074897          1/2009            3,718.56
19) IACRO 07-4312I                   69,116.00       9/30/2008        90074274        10/2008             2,098.34
20)                                                      ”            90074520        11/2008               154.94
                                     Lawrence Livermore National Laboratory
21) F4DEB18246G001                 $100,000.00       9/30/2008       2009503611         2/2009          $43,244.97
22)                                                      ”           2009504333         3/2009            1,877.15
23)                                                      ”           2009504947         4/2009           51,973.55
24)                                                      ”           2009506063         5/2009              947.84
25) F4FDAG8179G002                  150,000.00       9/30/2009       2010500813       10/2009               852.09
26)                                                      ”           2010501541       11/2009             2,418.58
27) F4FDAG8179G001                  221,823.30       9/30/2008       2009501002       10/2008            73,224.70
28)                                                      ”           2009501637       11/2008            26,459.83
29)                                                      ”           2009502241       12/2008            47,865.36
30)                                                      ”           2009502871         1/2009           24,679.59
31)                                                      ”           2009503626         2/2009           49,593.82
Total                                                                                                 $641,188.42



      
       We did not review invoices. Instead, we determined the services were nonseverable and should have been
      fully funded up front.


                                                        48
Appendix G. Improving the Management and
Use of Interagency Acquisitions




                   49
50
Appendix H. DOE FYs 2009 and 2010
Section 801 Certifications




                   51
52
Appendix I. Section 801 Waivers




                    53
54
55
Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                    Click to add JPEG file




                                   56
Click to add JPEG file




               57
Click to add JPEG file




               58
Click to add JPEG file




               59
Click to add JPEG file




               60
Click to add JPEG file




               61
Click to add JPEG file




               62
Click to add JPEG file




               63
Office of the Under Secretary of Defense (Comptroller)/
Chief Financial Officer Comments




                    Click to add JPEG file




                                   64
Click to add JPEG file




               65
Click to add JPEG file




               66
Department of the Navy Comments




                  Click to add JPEG file




                                 67
Click to add JPEG file




               68
Defense Threat Reduction Agency Comments




                  Click to add JPEG file




                                 69
Click to add JPEG file




               70
